1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY L. BLIXSETH,

No. 16-35304

Appellant,
v.

D.C. No.
2:11-cv-00065-SEH

CREDIT SUISSE,
Appellee.

OPINION

Appeal from the United States District Court
for the District of Montana
Sam E. Haddon, District Judge, Presiding
Argued and Submitted June 17, 2019
San Francisco, California
Filed June 11, 2020
Before: Richard A. Paez, Marsha S. Berzon,
and Jay S. Bybee, Circuit Judges.
Opinion by Judge Berzon
SUMMARY*
Bankruptcy
The panel affirmed, on different grounds, the district court’s dismissal of a challenge to an exculpation
* This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

2a
clause approved by the bankruptcy court as part of a
settlement and confirmation plan in Chapter 11 proceedings.
The Chapter 11 proceedings were filed by Yellowstone Club companies founded by appellant Timothy
Blixseth and his then-wife. The exculpation clause released certain non-debtors, including Credit Suisse,
from liability for acts or omissions arising out of the
Chapter 11 proceedings. In a prior appeal, this court
affirmed the district court in part and reversed in part,
holding that Blixseth had standing to challenge the
bankruptcy court’s order approving the plan and that
Blixseth’s challenge to the exculpation clause was not
equitably moot.
As an initial matter, the panel declined to dismiss
Blixseth’s appeal as a sanction for his failure to respond to an order to show cause for why his appeal
should persist in the wake of a purported global settlement.
The panel held that, on remand, the district court
erred by dismissing Blixseth’s challenge on the ground
that it was barred by equitable mootness. The panel
held that its prior holding on equitable mootness was
law of the case and was sound.
The panel nonetheless affirmed on the ground that
the exculpation clause was valid, and the bankruptcy
court properly released Credit Suisse, a creditor, from
liability for certain potential claims against it. Consistent with the Third Circuit, the panel held that 11
U.S.C. § 524(e), providing that discharge of a debt of

3a
the debtor does not affect the liability of any other entity on such debt, did not bar the exculpation clause,
which narrowly focused on actions of various participants in the plan approval process and related only to
that process.
COUNSEL
Becky S. James (argued) and Rachael A. Robinson,
James & Associates, Calabasas, California, for Appellant.
Christopher J. Cariello (argued), Orrick Herrington &
Sutcliffe LLP, New York, New York; Robert M. Loeb,
Orrick Herrington & Sutcliffe LLP, Washington, D.C.;
J. Richard Orizotti, Poore Roth & Robinson P.C., Butte,
Montana; Evan R. Levy, Mark A. McDermott, and
Shaud G. Tavakoli, Skadden Alps Slate Meagher &
Flom LLP, New York, New York; for Appellee.

OPINION
BERZON, Circuit Judge:
We have been here, or nearly here, before. Timothy
Blixseth (“Blixseth”) appeals the district court’s dismissal of his challenge to an exculpation clause (the
“Exculpation Clause” or the “Clause”) approved by the
bankruptcy court as a part of a settlement plan to
which Blixseth objected. The district court dismissed
the challenge because it determined that Blixseth’s
case is equitably moot, even though we previously held

4a
his challenge to the Exculpation Clause not equitably
moot. Although the court erred in doing so, we hold the
Exculpation Clause valid, and so affirm the dismissal.
I
Timothy Blixseth and Edra Blixseth, his wife at
the time, founded the Yellowstone Club in 2000 as an
“exclusive ski and golf community” in Big Sky, Montana. In 2005, representing that he was planning to
take the Yellowstone Club global, Blixseth borrowed
$375 million from Credit Suisse and other lenders. See
Blixseth v. Kirschner (In re Yellowstone Mountain Club,
LLC), 436 B.R. 598, 607, 60913. (Bankr. D. Mont. 2010),
amended in part by No. 0861570-11, 2010 WL 3504210
(Bankr. D. Mont. Sept. 7, 2010). To secure the loan,
Blixseth offered the assets of companies related to the
Club—Yellowstone Mountain Club, LLC; Yellowstone
Development, LLC; Big Sky Ridge, LLC; and Yellowstone Club Construction Company, LLC. Id. at 608–13.
Blixseth and Edra Blixseth divorced in 2008. As a
result of the divorce proceedings, Edra Blixseth became the indirect owner of the Yellowstone companies.
Id. at 632. The companies had entered “a downward
spiral,” id. at 618, largely because Blixseth mismanaged and misused the money from the 2005 loan, see
id. at 613–15. As a result, repayment of that loan was
no longer viable. Id. at 620. Edra Blixseth decided
to take the companies (collectively, the “Debtors”)
through Chapter 11 bankruptcy proceedings, with the
intention of selling the Debtors’ assets to CrossHarbor

5a
Capital Partners, LLC, a real estate management
company that had purchased residential lots in the
Yellowstone Club and had offered to buy the Club. Id.
at 619–21, 630–31.
The bankruptcy proceedings were contentious.
The Debtors, Blixseth, CrossHarbor, Credit Suisse—
the Debtors’ largest creditor—and a committee of unsecured creditors battled over the companies’ assets.
As the bankruptcy court noted, “litigation and the
threat of litigation is and was plentiful in this case.” In
re Yellowstone Mountain Club, LLC, 460 B.R. 254, 274
(Bankr. D. Mont. 2011).
Settlement negotiations narrowed the scope of the
litigation. On April 3, 2009, the Debtors filed a Second
Amended Reorganization Plan and Disclosure Statement, which included an exculpation clause releasing
certain non-debtors from liability for acts or omissions arising out of the Chapter 11 proceedings. Credit
Suisse was not included as an exculpated party. It objected to the plan and, specifically, the Clause, on the
ground that “such releases are strictly forbidden in the
Ninth Circuit and grounds for denial of confirmation of
the Plan.” Blixseth, who was also not included as an
exculpated party, adopted and joined Credit Suisse’s
objections.
Credit Suisse’s objection threatened the confirmation of the plan and set off another intense round of
negotiations. Over the course of a weekend in May
2009, Credit Suisse, CrossHarbor, and the Debtors negotiated a “global settlement” that allowed the Debtors

6a
to avoid liquidating their assets. Id. at 264–65. This
settlement formed the basis for the Third Amended
Joint Plan (the “Plan”). The Plan resolved lingering litigation between the parties and, relevant here, included the Exculpation Clause at issue, which now
covered Credit Suisse as an exculpated party. The full
Clause, set out in Section 8.4 of the Plan, provides:
None of [the Exculpated Parties, including
Credit Suisse, CrossHarbor, and Edra Blixseth], shall have or incur any liability to any
Person for any act or omission in connection
with, relating to or arising out of the Chapter
11 Cases, the formulation, negotiation, implementation, confirmation or consummation of
this Plan, the Disclosure Statement, or any
contract, instrument, release or other agreement or document entered into during the
Chapter 11 Cases or otherwise created in connection with this Plan; provided, however,
that nothing in this Section 8.4 shall be construed to release or exculpate any Exculpated
Party from willful misconduct or gross negligence as determined by a Final Order or any
breach of the Definitive Agreement or any
documents entered into in connection therewith.
Blixseth, who was not covered by the revised exculpation clause, again objected to the Plan. The bankruptcy court approved the Plan on June 2, 2009, and
Blixseth appealed. The district court reversed the
bankruptcy court’s confirmation of the Plan because
of the breadth of the Exculpation Clause. The court

7a
instructed the bankruptcy court to “explicitly identify
and delineate those persons or representatives determined to be within the scope of the release parameters
of Section 524(e).”
On remand, the bankruptcy court conducted two
days of evidentiary hearings and argument on the Exculpation Clause. On September 30, 2011, the court
confirmed the plan once more, not modifying the Plan
but construing the Clause to be “narrow in both scope
and time.” In re Yellowstone Mountain Club, LLC, 460
B.R. at 272.
Blixseth appealed again. The district court rejected the Plan proponents’ argument that Blixseth’s
appeal was barred by the doctrine of equitable mootness but concluded that Blixseth did not have standing
to appeal the bankruptcy court’s approval of the Plan.
Blixseth and the Plan proponents cross appealed to
this Court. In an unpublished disposition, we affirmed
the district court in part and reversed in part, holding
(1) that Blixseth was a “person aggrieved” by the bankruptcy court’s order and thus had standing to challenge that order, and (2) that Blixseth’s challenge to
the Exculpation Clause was not equitably moot because it was “apparent that one or more remedies is
still available.” Blixseth v. Yellowstone Mountain Club,
LLC, 609 F. App’x 390, 391–92 (9th Cir. 2015) (citation
omitted). We remanded to the district court with instructions to consider the merits of Blixseth’s challenge to the Clause.

8a
But on remand, the district court did not rule on
the merits of Blixseth’s challenge to the Clause. Instead, it dismissed Blixseth’s challenge on the ground
that it was barred by equitable mootness.
This appeal followed.
II
As an initial matter, we face a procedural question:
Credit Suisse contends Blixseth’s appeal should be dismissed outright because of his failure to respond to our
order requiring him to show cause for why his appeal
should persist in the wake of a purported global settlement.
During the pendency of this appeal, we became
aware that settlement negotiations among the parties
to the dispute had been ongoing and the parties might
have reached a settlement. We issued an order stating:
It appears that these appeals may be moot because of settlement or should otherwise be
dismissed. Within 21 days after the filing date
of this order, appellant shall move to voluntarily dismiss these appeals or show cause why
these appeals should not be dismissed. If appellant fails to respond to this order, these appeals will be automatically dismissed by the
Clerk for failure to prosecute. See 9th Cir. R.
42-1. If appellant files a response, appellees
shall file a response or an appropriate motion
within 14 days after service of appellant’s filing. Further briefing is stayed pending resolution of this order.

9a
It turned out that Blixseth had settled with two
parties, CrossHarbor and Yellowstone Mountain Club,
LLC, but not with Credit Suisse. In response to our order, Blixseth moved to dismiss CrossHarbor and Yellowstone Mountain Club; he did not explain why he
made no motion concerning Credit Suisse, nor did he
explain why his appeal with regard to Credit Suisse
was not moot.
Our order had stated that Blixseth’s appeal would
be “automatically dismissed by the Clerk,” if he failed
to respond to the order. In fact it was not dismissed.
Blixseth did respond to the order, albeit incompletely,
by moving to dismiss two defendants but not responding with regard to Credit Suisse.
Blixseth finally did respond as to mootness with
regard to Credit Suisse—a month and a half later than
required by our order—after Credit Suisse moved to
dismiss his appeal.1 Given Blixseth’s belated response
with regard to Credit Suisse, we have the authority to
dismiss Blixseth’s appeal now for incomplete compliance with our order. But equitable factors persuade us
not to do so.
Under our Circuit’s rules,
[w]hen an appellant fails to file a timely record, pay the docket fee, file a timely brief, or
otherwise comply with rules requiring processing the appeal for hearing, an order may
1

According to Blixseth, Credit Suisse contributed to his failure to respond by unexpectedly refusing to sign the settlement
release the other parties executed.

10a
be entered by the clerk dismissing the appeal.
In all instances of failure to prosecute an appeal to hearing as required, the Court may
take such other action as it deems appropriate.
9th Cir. R. 42-1 (emphases added). In general, “[d]ismissal is a harsh penalty and is to be imposed only
in extreme circumstances,” because, inter alia, “public
policy favor[s] disposition of cases on their merits.”
Henderson v. Duncan, 779 F.2d 1421, 1423 (9th Cir.
1986). We routinely dismiss cases pursuant to Rule 421 when an appellant fails to file an opening brief. See,
e.g., Hinds & Shankman, LLP v. Lapides, No. 19-56236,
2020 WL 1943511, at *1 (9th Cir. Mar. 24, 2020). But in
circumstances closer to those here, we have chosen not
to dismiss.
Radici v. Associated Insurance Cos., for instance,
involved an appellant who filed a Civil Appeal Docketing Statement late, in violation of an order that “specifically provided that failure to file [the statement] in
timely manner would result in dismissal.” 217 F.3d
737, 746 (9th Cir. 2000). We nonetheless declined to
dismiss the appeal in Radici, because “Appellees’ counsel conceded that Appellants’ delay . . . did not prejudice or harm her clients’ interests,” making dismissal
“appear[ ] harsher than necessary.” Id.
Credit Suisse does not concede that Blixseth’s delay caused it no prejudice, but we cannot identify any
interest of Credit Suisse’s that was harmed as a result
of the delay. And, like the appellant in Radici, Blixseth
did respond—if incompletely—to our order, by moving

11a
to dismiss CrossHarbor and Yellowstone Mountain
Club. In light of those factors, and given the extensive
litigation that has occurred to date over the validity of
the Exculpation Clause, dismissal “appears harsher
than necessary.” Id. Rather than sanction Blixseth for
his incomplete compliance with our directive, we consider the substance of his appeal.
III
A
On remand from Blixseth’s earlier appeal, the
district court dismissed his case on the ground that
Blixseth’s challenge to the Exculpation Clause was equitably moot. In reaching this conclusion the district
court disregarded our earlier holding that “Blixseth’s
appeal as to the exculpation clause is not equitably
moot, because it is apparent that one or more remedies
is still available.” Blixseth, 609 F. App’x. at 392. Our
holding bound the district court, and it binds us now,
as the law of the case. See Herrington v. Cty. of Sonoma,
12 F.3d 901, 904–05 (9th Cir. 1993).
Even if we were not bound by our earlier decision,
we remain convinced that it was sound. Credit Suisse
argues, and the district court concluded, that Blixseth’s
appeal is moot because his only proposed remedy, invalidating the Exculpation Clause, “would require that
the [Bankruptcy] Plan be vacated and constructed
anew, thereby creating ‘an uncontrollable situation for
the bankruptcy court.’ Blixseth v. Yellowstone Mountain Club, LLC, CV-11-65-BU-SEH, slip op. at 4 (D.

12a
Mont. Mar. 23, 2016) (quoting Motor Vehicle Cas. Co. v.
Thorpe Insulation Co. (In re Thorpe Insulation Co.),
677 F.3d 869, 881 (9th Cir. 2012)). But equitable mootness involves the capacity of courts, not parties, to
fashion a remedy. As In re Thorpe stated, “[b]ecause
traditional equitable remedies are extremely broad
and vest great discretion in a court devising a remedy,
we expect that if there is violation of Appellants’ legal
rights from the plan, the bankruptcy court should be
able to find a remedy that is appropriate.” 677 F.3d at
883 (emphases added). There are “plan modifications
adequate to give” Blixseth at least some relief—for example, the bankruptcy court could modify the Plan to
make even more express the limited temporal and substantive scope of the Exculpation Clause. Id. “Where
equitable relief, though incomplete, is available, the
appeal is not moot.” Id.
B
Because it improperly dismissed the case as equitably moot, the district court did not determine
whether the Exculpation Clause is valid. We could remand the case once more, but will not do so. “We are in
as good a position to review the bankruptcy court’s decision as is the district court.” Sousa v. Miguel (In re
United States Tr.), 32 F.3d 1370, 1372 (9th Cir. 1994)
(citation and internal quotation marks omitted).
“Whether a bankruptcy court has the power to release
claims against a non-debtor is a question of law which
we review de novo.” Resorts Int’l, Inc. v. Lowenschuss
(In re Lowenschuss), 67 F.3d 1394, 1401 (9th Cir. 1995)

13a
(citation omitted). We hold that the Clause, as applied
to Credit Suisse, is valid.
The question before us is whether the bankruptcy
court could release Credit Suisse, a creditor, from liability for certain potential claims against it by approving the Exculpation Clause.2
The liability release here is “narrow in both scope
and time,” In re Yellowstone Mountain Club, 460 B.R.
at 272, limited to releasing the parties from liability
for “any act or omission in connection with, relating to
or arising out of the Chapter 11 cases” or bankruptcy
filing, id. at 267. It does not affect obligations relating
to the claims filed by creditors and discharged through
the bankruptcy proceedings, as it exclusively exculpates actions that occurred during the bankruptcy proceeding, not before. And, during that time period, the
Clause’s release applies only to negligence claims; it
does not release parties “from willful misconduct or
gross negligence.” Id. Further, the Clause covers only
parties “closely involved” in drafting the Plan—as relevant here, Credit Suisse. Id. at 277. The bankruptcy
court reasoned that Credit Suisse should be covered
because, as the largest creditor, it “had the ability to
single-handedly disrupt the entire confirmation process,” but had become a “plan proponent[ ]” through its
direct participation in the negotiations that preceded
the adoption of the Plan. Id. at 275–77. Altogether, as
2

As Blixseth has settled with the other parties covered by
the Clause, we discuss the validity of the clause only as it releases
Credit Suisse from liability.

14a
the bankruptcy court noted, the Exculpation Clause is
not “a broad sweeping provision that seeks to discharge or release non-debtors from any and all claims
that belong to others.” Id. at 270.3
Blixseth primarily contends the Exculpation Clause
violates 11 U.S.C. § 524(e). Subject to exceptions not
relevant here, § 524(e) establishes that “discharge of a
debt of the debtor does not affect the liability of any
other entity on, or the property of any other entity for,
such debt.” We have interpreted the section generally
to prohibit a bankruptcy court from discharging the
debt of a non-debtor. See In re Lowenschuss, 67 F.3d at
1402.4
We conclude, however, that § 524(e) does not bar a
narrow exculpation clause of the kind here at issue—
that is, one focused on actions of various participants
in the Plan approval process and relating only to that
process.
Section 524(e) establishes that “discharge of a debt
of the debtor does not affect the liability of any other
3

Neither party contests on appeal the bankruptcy court’s interpretation of the Clause.
4
There is a long-running circuit split on this issue. Other
circuits do allow bankruptcy plans to “discharge the debts of certain non-debtor third parties.” Deocampo v. Potts, 836 F.3d 1134,
1143 (9th Cir. 2016) (citing Menard-Sanford v. Mabey (In re A.H.
Robins Co.), 880 F.2d 694, 702 (4th Cir. 1989)). See generally
Joshua M. Silverstein, Hiding in Plain View: A Neglected Supreme Court Decision Resolves the Debate over Non-Debtor Releases in Chapter 11 Reorganizations, 23 Emory Bankr. Dev. J. 13
(2006).

15a
entity on . . . such debt.” 11 U.S.C. § 524(e) (emphases
added). In other words, “the discharge in no way affects
the liability of any other entity . . . for the discharged
debt.” 4 Collier on Bankruptcy 11524.05 (emphasis
added). By its terms, § 524(e) prevents a bankruptcy
court from extinguishing claims of creditors against
non-debtors over the very debt discharged through the
bankruptcy proceedings. See In re PWS Holding Corp.,
228 F.3d 224, 245–46 (3d Cir. 2000) (making the same
point).
That § 524(e) confines the debt that may be discharged to the “debt of the debtor”—and not the obligations of third parties for that debt—conforms to the
basic fact that “a discharge in bankruptcy does not extinguish the debt itself but merely releases the debtor
from personal liability. . . . The debt still exists, however, and can be collected from any other entity that
may be liable.” Landsing Diversified Props.-II v. First
Nat’l Bank & Tr. Co. of Tulsa (In re W. Real Estate
Fund), 922 F.2d 592, 600 (10th Cir. 1990) (alteration in
original) (quoting In re Lembke, 93 B.R. 701, 702
(Bankr. D.N.D. 1988)); see also Lewis v. Scott (In re
Lewis), 97 F.3d 1182, 1185 (9th Cir. 1996). As § 524(a)
elucidates, a discharge
voids any judgment at any time obtained, to
the extent that such judgment is a determination of the personal liability of the debtor with
respect to any debt discharged . . . [;] operates
as an injunction against the commencement
or continuation of an action . . . to collect, recover or offset any such [discharged] debt as a

16a
personal liability of the debtor . . . [;] and operates as an injunction against the commencement or continuation of an action . . . to
collect or recover from, or offset against, property of the debtor.
11 U.S.C. § 524(a). A bankruptcy discharge thus protects the debtor from efforts to collect the debtor’s discharged debt indirectly and outside of the bankruptcy
proceedings; it does not, however, absolve a nondebtor’s liabilities for that same “such” debt.
The legislative history of § 524(e) makes clearer
the distinction between claims for the underlying debt
and other claims, such as those relating specifically to
the bankruptcy proceedings. As Underhill v. Royal
summarized, § 524(e) is a
reenactment of Section 16 of the 1898 Act
which provided that “[t]he liability of a person
who is a co-debtor with, or guarantor or in any
manner a surety for, a bankrupt shall not be
altered by the discharge of such bankrupt.”
Act of July 1, 1898, ch. 541, § 16, 30 Stat. 550
(formerly codified at 11 U.S.C. § 34 (1976)).
769 F.2d 1426, 1432 (9th Cir. 1985) (alteration in original). The emphasis on the liability of co-debtors and
guarantors, but not creditors or other third parties, indicates the intended scope of Section 16 and, by extension, § 524(e). “The import of Section 16 [of the 1898
Act] is that the mechanics of administering the federal
bankruptcy laws, no matter how suggestive, do not
operate as a private contract to relieve co-debtors of
the bankrupt of their liabilities.” Id. (alterations in

17a
original) (quoting Union Carbide Corp. v. Newboles,
686 F.2d 593, 595 (7th Cir. 1982) (per curiam)). Like its
predecessor provision in the 1898 Bankruptcy Act,
§ 524(e) prevents a reorganization plan from inappropriately circumscribing a creditor’s claims against a
debtor’s co-debtor or guarantors over the discharged
debt, and so does not apply to the Clause before us.
Consistent with our analysis, the Third Circuit
has upheld an exculpation clause similar to the one
here at issue. PWS, 228 F.3d at 245–46. In doing so,
the court took into account that the exculpated nondebtors there were members of the creditors’ committee and related professionals and individuals. At the
same time, and more broadly, PWS stated that “Section
524(e), by its terms, only provides that a discharge of
the debtor does not affect the liability of non-debtors
on claims by third parties against them for the debt
discharged in bankruptcy,” id. at 245 (emphasis
added), and held that the partial exculpation for acts
committed during the process of developing and confirming a Chapter 11 plan did not “affect the liability
of another entity on a debt of the debtor within the
meaning of § 524(e),” id. at 247.
Contesting this limited view of § 524(e), Blixseth
directs us toward broad language we have used in
three cases in which we interpreted § 524(e) to bar
nondebtor releases. The first of these cases, Underhill,
stated that “the bankruptcy court has no power to discharge the liabilities of a nondebtor pursuant to the
consent of creditors as part of a reorganization plan.”
769 F.2d at 1432, rejected on other grounds by Reves v.

18a
Ernst & Young, 494 U.S. 56 (1990). In re American
Hardwoods, Inc. added that “Section 524(e) . . . limits
the court’s equitable power under section 105 to order
the discharge of the liabilities of nondebtors.” 885 F.2d
621, 626 (9th Cir. 1989). Finally, based on Underhill
and American Hardwoods, Lowenschuss declared “[t]his
court has repeatedly held, without exception, that
§ 524(e) precludes bankruptcy courts from discharging
the liabilities of non-debtors.” 67 F.3d at 1401.
But Underhill, American Hardwoods, and Lowenschuss all involved sweeping nondebtor releases
from creditors’ claims on the debts discharged in the
bankruptcy, not releases of participants in the plan
development and approval process for actions taken
during those processes. Underhill, for example, disapproved a release provision that discharged “all claims
against the debtor, any affiliate of the Debtor, and any
insider of the debtor,” including for securities law violations that occurred prior to the bankruptcy filing. 769
F.2d at 1429–30 (emphases added) (internal quotations marks omitted). American Hardwoods involved
an injunction that, like a release provision, would have
permanently prevented a creditor from collecting
any debt from American Hardwoods’ guarantors—
the president and vice president of American Hardwoods—on American Hardwoods’ discharged debts.
885 F.2d at 622. And Lowenschuss dealt with a “Global
Release” provision that, true to its title, “released numerous parties . . . from all claims.” 67 F.3d at 1397, 1401.
In each of these cases, the breadth of the coverage—
the “Global Release” in Lowenschuss; the permanent

19a
injunction in American Hardwoods; and the “all claims”
exculpation in Underhill—would have affected the
ability of creditors to make claims against third parties, including guarantors and co-debtors, for the
debtor’s discharged debt.
In contrast, the Exculpation Clause here deals
only with the highly litigious nature of Chapter 11
bankruptcy proceedings.5 As one of the bankruptcy
attorneys in this case stated during the bankruptcy
court’s hearing on the Exculpation Clause, in bankruptcy proceedings lawyers “battle each other tirelessly. . . . oxes [sic] are gored.” 460 B.R. at 274 (internal
quotation marks omitted). Rather than provide an unauthorized “fresh start” to a non-debtor, Bank of N.Y.
Tr. Co., NA v. Official Unsecured Creditors’ Comm. (In
re Pacific Lumber Co.), 584 F.3d 229, 251–53 (5th Cir.
2009), the Clause does nothing more than allow the
settling parties—including Credit Suisse, the Debtors’
largest creditor—to engage in the give-and-take of the
bankruptcy proceeding without fear of subsequent

5

Notably, Blixseth has never shown that the Exculpation
Clause impermissibly releases Credit Suisse—or anyone—from
any potential viable claims he might bring. At oral argument,
Blixseth raised the dismissal of a breach of contract claim against
Credit Suisse in a separate suit he filed in the District of Colorado.
See Blixseth v. Cushman & Wakefield of Colo., Inc., 2013 WL
5446791 (D. Colo. 2013). The district court there did determine
that the Exculpation Clause barred his claim, but the claim involved Credit Suisse’s participation in the bankruptcy proceedings, not its conduct outside those proceedings. Id. at *9.

20a
litigation over any potentially negligent actions in
those proceedings.6
Under 11 U.S.C. § 105(a), which empowers a bankruptcy court to “issue any order, process, or judgment
that is necessary or appropriate to carry out the provisions of [Chapter 11],” and 11 U.S.C. § 1123, which establishes the appropriate content of a bankruptcy plan,
the bankruptcy court here had the authority to approve an exculpation clause intended to trim subsequent litigation over acts taken during the bankruptcy
proceedings and so render the Plan viable. Section
524(e) constrains this power by ensuring that no third
party is released from its obligation for the underlying debt. See 11 U.S.C. § 1123(a); Am. Hardwoods, 885
F.2d at 625–26. But, as we have discussed, the Exculpation Clause does not affect claims for that debt, and
so it was within the bankruptcy court’s power to approve the Exculpation Clause as a part of the Plan.7
6

Blixseth does not challenge the Exculpation Clause on the
grounds that it violates the “hallmarks of permissible non-consensual releases—fairness, necessity to the reorganization, and specific factual findings to support these conclusions.” Gillman v.
Continental Airlines (In re Continental Airlines), 203 F.3d 203,
214 (3d Cir. 2000). We therefore do not consider that possibility
in detail, but we do note that, based on the bankruptcy courts
findings, In re Yellowstone Mountain Club, LLC, 460 B.R. at 272,
the Clause almost certainly displays these hallmarks.
7
The Fifth Circuit has reached a conclusion opposite ours. In
re Pacific Lumber Co. held that § 524(e) barred a release provision
that would have released non-debtors who were not “co-liable for
the Debtors’ pre-petition debts. . . . from any negligent conduct
that occurred during the course of the bankruptcy,” except insofar
as the release covered negligent conduct of members of the
creditors’ committee already protected by a limitation on liability

21a
According to PWS, similar limited exculpatory clauses
focused on acts committed as part of the bankruptcy
proceedings are “apparently a commonplace provision
in Chapter 11 plans,” 228 F.3d at 245; see also In re
Yellowstone Mountain Club, 460 B.R. at 271, 274, presumably because of the features of bankruptcy litigation just noted.8
Aside from his § 524(e) argument, Blixseth also argues he is not bound by the Plan’s settlement because
there was no consideration for the settlement and he
was not in privity with the parties. These arguments
misunderstand the source of a bankruptcy court’s
power. As Underhill explained, “When a bankruptcy
court discharges the debtor, it does so by operation of
the bankruptcy laws, not by consent of the creditors. . . . [T]he payment which effects a discharge is not
consideration for any promise by the creditors, much
less for one to release non-party obligators.” 769 F.2d
implied from the bankruptcy code. 584 F.3d at 252. In re Pacific
Lumber Co. reasoned that “[t]he fresh start § 524(e) provides to
debtors is not intended to serve this purpose.” Id. at 252–53. But,
as we have discussed, the Exculpation Clause does not provide a
“fresh start” to Credit Suisse, because it affects only claims arising from the bankruptcy proceedings themselves.
8
Unlike the creditors committee in PWS, one of the exculpated parties in that case, Credit Suisse, the Debtors’ largest
creditor, does not have an implied fiduciary duty derived from the
statute to the participants of the bankruptcy proceedings. 228
F.3d. at 246; see also 11 U.S.C. § 1103(c). But the fundamental
point remains that the Clause, as applied to Credit Suisse, does
not reach “such debt” within the meaning of § 524(e)—it merely
releases Credit Suisse from some potential liability that might
arise from its actions in the bankruptcy proceedings.

22a
at 1432 (internal quotation marks omitted) (quoting
Union Carbide Corp., 686 F.2d at 595). Whether or not
there was consideration and privity, the bankruptcy
court had the power to confirm the Plan.
IV
In sum, we shall not dismiss Blixseth’s appeal because of his failure to reply to our show cause order. We
remain bound by our earlier decision that Blixseth’s
challenge to the Exculpation Clause is not equitably
moot. Considering the merits of Blixseth’s challenge,
we hold that § 524(e) does not prohibit the Exculpation
Clause at issue, because the Clause covers only liabilities arising from the bankruptcy proceedings and not
the discharged debt. Perhaps we have reached the end
of this matter.
AFFIRMED.

23a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
TIMOTHY L. BLIXSETH,
Appellant,
vs.

No. CV-11-65-BU-SEH
MEMORANDUM
AND ORDER

YELLOWSTONE MOUNTAIN (Filed Mar. 23, 2016)
CLUB, LLC, YELLOWSTONE
On appeal
DEVELOPMENT, LLC, BIG
from Bankruptcy
SKY RIDGE, LLC, YELLOW- Case No. 08-61570-11
STONE CLUB CONSTRUCTION CO., LLC,
Appellees,
This matter is before the Court on remand following the Circuit’s determination that Blixseth’s appeal
as to the exculpation clause of the Third Amended Plan
of Reorganization (“the Plan”) was not equitably moot.
Instruction to this Court “to consider Blixseth’s challenges to the exculpation clause in the first instance”1
was provided. Those challenges have been fully considered and, for the stated reasons which follow, have
been resolved.
Whether and when equitable mootness may be invoked to preclude review of an order confirming a

1

Doc. 134 at 5.

24a
reorganization plan was directly addressed in the Circuit’s memorandum of May 1, 2015:
Equitable “mootness is a jurisdictional issue which [this Court] review[s] de novo.
Baker & Drake, Inc. v. Pub. Serv. Comm ‘n of
Nev. (In re Baker & Drake, Inc.), 35 F.3d 1348,
1351 (9th Cir. 1994). Considerations in determining whether an appeal of an order confirming a reorganization plan is equitably
moot include: whether the party seeking relief
has diligently sought a stay; whether the plan
has been substantially consummated; and
whether the rights of third parties have intervened. In re Thorpe, 677 F.3d at 880. Of particular relevance is “whether the bankruptcy
court can [still] fashion effective and equitable
relief without completely knocking the props
out from under the plan and thereby creating
an uncontrollable situation for the bankruptcy court.” Id.; see also Spirtos v. Moreno
(In re Spirtos), 992 F.2d 1004, 1006 (9th Cir.
1993).2
The Circuit’s memorandum addresses and resolves two of the three significant considerations of
equitable mootness contrary to the position asserted
by Blixseth: (1) “whether the party seeking relief has
diligently sought a stay,”3 Blixseth sought no stay in
the district court. None was requested in the Circuit;4
and, (2) “whether the plan has been substantially
2
3
4

Doc. 134 at 4.
Doc. 134 at 4.
Doc. 134 at 4.

25a
consummated.”5 To this latter consideration, the Circuit spoke directly—“[T]he plan has been substantially
consummated[.]”6
The record before the Bankruptcy Court when it
issued its order reconfirming the Plan on September
30, 2011, clearly answered, adversely to Blixseth, the
core question in the third consideration of equitable
mootness analysis, namely “whether the bankruptcy
court [could] still fashion effective and equitable relief
short of vacating the Plan.”7
Judge Kirscher’s September 30, 2011, Memorandum of Decision is exhaustive in its detailed description of the efforts expended by the parties in the
process of negotiating and reaching resolution of the
myriad of issues encompassed by the Plan. The exculpation clause, like the Settlement Term Sheet, was an
essential and cornerstone component of the Plan itself.8 Moreover, absent resolution of the numerous disputes memorialized in the Plan and incorporated in
the Settlement Term Sheet, no successful reorganization would have been feasible. Any upset or set aside
of the exculpation clause or the Settlement Term Sheet
would have doomed the Plan itself to failure, and at
this juncture, effectively would require that the Plan
be vacated and constructed anew, thereby creating
“ ‘an uncontrollable situation for the bankruptcy court.’
5
6
7
8

Doc. 134 at 4.
Doc. 134 at 5.
Doc. 134 at 4.
See discussion, Doc. 1-8 at 32-33, 35.

26a
[In re Thorpe, 677 F.3d at 880]; see also In re Spirtos,
992 F.2d 1004, 1006 (9th Cir. 1993).”9 Indeed, as the
Circuit’s Memorandum of May 1, 2015, reflects, issues
Blixseth had raised claiming “that the bankruptcy
court erred in approving the Settlement Term Sheet
and in denying Blixseth’s Rule 60(b) motion for relief
from the Confirmation Order and that Blixseth [was]
therefore entitled to be restored to the ‘status quo
ante,’ ” were rejected for the reason that the relief
sought “would [have] require[d] unraveling the Plan
entirely.”10 Rejection of the exculpation clause would
require that same unraveling of the Plan.
Judge Kirscher’s decision adopting and ratifying
his approval of the “Memorandum of Decision and order entered June 2, 2009, [and] approving the Settlement Term Sheet and confirming the Debtors’ Third
Amended Joint Plan of Reorganization” was fully supportable and in compliance with all requirements of
law.11 All unresolved claims advanced by Blixseth in
this appeal are barred from assertion by equitable
mootness.
ORDERED:
This appeal is DISMISSED.

9

Doc. 134 at 4.
Doc. 134 at 5.
11
Doc. 1-8 at 41.
10

27a
DATED this 23rd May of March, 2016.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

28a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY L. BLIXSETH,
Appellant,
v.

No. 13-35190
D.C. No.
2:11-cv-00065-SEH

YELLOWSTONE MOUNTAIN MEMORANDUM*
CLUB, LLC; YELLOWSTONE (Filed May 1, 2015)
CLUB CONSTRUCTION
COMPANY, LLC; YELLOWSTONE DEVELOPMENT,
LLC,
Debtors - Appellees,
BRIAN A. GLASSER, Esquire,
Trustee of Yellowstone Club
Liquidating Trust,
Appellee,
BLUE SKY RIDGE, LLC,
Debtor - Appellee,
CROSS HARBOR CAPITAL
PARTNERS, LLC; CREDIT
SUISSE,
Appellees.

* This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

29a
YELLOWSTONE MOUNTAIN No. 13-35245
CLUB, LLC; YELLOWSTONE
D.C. No.
CLUB CONSTRUCTION
COMPANY, LLC; YELLOW- 2:11-cv-00065-SEH
STONE DEVELOPMENT,
LLC,
Debtors - Appellants,
BRIAN A. GLASSER, Esquire,
Trustee of Yellowstone Club
Liquidating Trust,
Appellant,
BLUE SKY RIDGE, LLC,
Debtor - Appellant,
CROSS HARBOR CAPITAL
PARTNERS, LLC,
Appellant,
v.
TIMOTHY L. BLIXSETH,
Appellee.
Appeal from the United States District Court
for the District of Montana
Sam E. Haddon, District Judge, Presiding
Argued and Submitted August 4, 2014
Pasadena, California
Before: KOZINSKI, PAEZ, and BERZON, Circuit
Judges.

30a
Appellant Timothy L. Blixseth (“Blixseth”) appeals the district court’s order dismissing, for lack of
appellate standing, his appeal from the bankruptcy
court’s order confirming the Third Amended Plan of
Reorganization (“the Plan”). In a cross-appeal, Yellowstone Mountain Club, LLC, et al. (“the Debtors”) argue
that the district court erred in denying their motion to
dismiss Blixseth’s appeal on grounds of equitable
mootness. We reverse in part, affirm in part, and remand.
(1) To have standing to appeal an order of the
bankruptcy court, an appellant must show he is a “person aggrieved”—that is, that he is “directly and adversely affected by the order of the bankruptcy court—
that it diminish the appellant’s property, increase its
burdens, or detrimentally affect its rights.” Motor Vehicle Casualty Co. v. Thorpe Insulation Co. (In re Thorpe
Insulation Co.), 677 F.3d 869, 884 (9th Cir. 2012). One
need not be a creditor of the estate to be a person
aggrieved. See, e.g., Fondiller v. Robertson (In re
Fondiller), 707 F.2d 441, 442 (9th Cir. 1983).
The exculpation clause strips Blixseth of identifiable, affirmative legal claims, which are property.
Called “choses in action” at common law, they have potential economic value. See C.I.R. v. Banks, 543 U.S.
426, 435-36 (2005); Phillips Petroleum Co. v. Shutts,
472 U.S. 797, 807 (1985); United States v. Stonehill, 83
F.3d 1156, 1159 (9th Cir. 1996). Blixseth is therefore
directly and adversely affected pecuniarily by the order confirming the Plan and so has standing to appeal
it. See In re Thorpe, 677 F.3d at 884. Accordingly, we

31a
REVERSE the district court’s order dismissing Blixseth’s appeal for lack of standing.
(2) Equitable “[m]ootness is a jurisdictional issue
which [this Court] review[s] de novo.” Baker & Drake,
Inc. v. Pub. Serv. Comm ‘n of Nev. (In re Baker & Drake,
Inc.), 35 F.3d 1348, 1351 (9th Cir. 1994). Considerations
in determining whether an appeal of an order confirming a reorganization plan is equitably moot include:
whether the party seeking relief has diligently sought
a stay; whether the plan has been substantially consummated; and whether the rights of third parties
have intervened. In re Thorpe, 677 F.3d at 880. Of particular relevance is “whether the bankruptcy court can
[still] fashion effective and equitable relief without
completely knocking the props out from under the plan
and thereby creating an uncontrollable situation for
the bankruptcy court.” Id.; see also Spirtos v. Moreno
(In re Spirtos), 992 F.2d 1004, 1006 (9th Cir. 1993).
Blixseth did not seek a stay in this Court, and the
Plan has been substantially consummated. Whether
Blixseth’s appeal as to the propriety of the exculpation
clause is equitably moot thus depends on whether the
bankruptcy court can still fashion effective and equitable relief short of vacating the Plan, an inquiry the district court did not undertake in denying the Debtors’
motion to dismiss Blixseth’s appeal as equitably moot.
We hold Blixseth’s appeal as to the exculpation
clause is not equitably moot, because it is apparent
that one or more remedies is still available. See In re
Thorpe, 677 F.3d at 880.

32a
We therefore AFFIRM, albeit on different grounds,
the district court’s conclusion that Blixseth’s challenge
to the exculpation clause is not equitably moot. We REMAND with instructions to consider Blixseth’s challenges to the exculpation clause in the first instance.
(3) As to Blixseth’s arguments that the bankruptcy court erred in approving the Settlement Term
Sheet and in denying Blixseth’s Rule 60(b) motion for
relief from the Confirmation Order and that Blixseth
is therefore entitled to be restored to the “status quo
ante,” his appeal is equitably moot. The relief Blixseth
seeks as to these issues would require unraveling the
Plan entirely. Because the Plan has been substantially
consummated, it is not now possible to give Blixseth
the broad remedies he seeks “without knocking the
props out from under the Plan.” See In re Thorpe, 677
F.3d at 880. His appeal as to these issues is therefore
equitably moot.
The parties shall bear their own costs on appeal.
AFFIRMED in part; REVERSED and REMANDED in part.

33a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY L. BLIXSETH,

No. 16-35304

Appellant,

D.C. No.
2:11-cv-00065-SEH
YELLOWSTONE MOUNTAIN District of Montana,
CLUB, LLC, YELLOWSTONE Butte
ORDER
DEVELOPMENT, LLC, BIG
SKY RIDGE, LLC, YELLOW- (Filed Aug. 20, 2020)
STONE CLUB CONSTRUCTION CO., LLC,
v.

Appellees,
Before: PAEZ and BERZON, Circuit Judges, and
BYBEE, Senior Circuit Judge.
The panel has unanimously voted to deny appellant’s petition for rehearing. Judge Paez and Judge
Berzon have voted to deny the petition for rehearing
en banc, and Judge Bybee so recommends. The full
court has been advised of the petition for rehearing en
banc, and no judge has requested a vote on whether to
rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing is denied and the petition for rehearing en banc is rejected.

34a
11 U.S.C. § 105. Power of court
Effective: December 22, 2010
(a) The court may issue any order, process, or judgment that is necessary or appropriate to carry out the
provisions of this title. No provision of this title providing for the raising of an issue by a party in interest
shall be construed to preclude the court from, sua
sponte, taking any action or making any determination
necessary or appropriate to enforce or implement court
orders or rules, or to prevent an abuse of process.
(b) Notwithstanding subsection (a) of this section, a
court may not appoint a receiver in a case under this
title.
(c) The ability of any district judge or other officer or
employee of a district court to exercise any of the authority or responsibilities conferred upon the court under this title shall be determined by reference to the
provisions relating to such judge, officer, or employee
set forth in title 28. This subsection shall not be interpreted to exclude bankruptcy judges and other officers
or employees appointed pursuant to chapter 6 of title
28 from its operation.
(d) The court, on its own motion or on the request of
a party in interest –
(1) shall hold such status conferences as are necessary to further the expeditious and economical
resolution of the case; and
(2) unless inconsistent with another provision of
this title or with applicable Federal Rules of

35a
Bankruptcy Procedure, may issue an order at any
such conference prescribing such limitations and
conditions as the court deems appropriate to ensure that the case is handled expeditiously and
economically, including an order that –
(A) sets the date by which the trustee must
assume or reject an executory contract or unexpired lease; or
(B)

in a case under chapter 11 of this title –
(i) sets a date by which the debtor, or
trustee if one has been appointed, shall
file a disclosure statement and plan;
(ii) sets a date by which the debtor, or
trustee if one has been appointed, shall
solicit acceptances of a plan;
(iii) sets the date by which a party in
interest other than a debtor may file a
plan;
(iv) sets a date by which a proponent of
a plan, other than the debtor, shall solicit
acceptances of such plan;
(v) fixes the scope and format of the notice to be provided regarding the hearing
on approval of the disclosure statement;
or
(vi) provides that the hearing on approval of the disclosure statement may be
combined with the hearing on confirmation of the plan.

36a
11 U.S.C. § 524. Effect of discharge
(a)

A discharge in a case under this title –
(1) voids any judgment at any time obtained, to
the extent that such judgment is a determination
of the personal liability of the debtor with respect
to any debt discharged under section 727, 944,
1141, 1192, 1228, or 1328 of this title, whether or
not discharge of such debt is waived;
(2) operates as an injunction against the commencement or continuation of an action, the employment of process, or an act, to collect, recover or
offset any such debt as a personal liability of the
debtor, whether or not discharge of such debt is
waived; and
(3) operates as an injunction against the commencement or continuation of an action, the employment of process, or an act, to collect or recover
from, or offset against, property of the debtor of
the kind specified in section 541(a)(2) of this title
that is acquired after the commencement of the
case, on account of any allowable community
claim, except a community claim that is excepted
from discharge under section 523, 1192,
1228(a)(1), or 1328(a)(1), or that would be so excepted, determined in accordance with the provisions of sections 523(c) and 523(d) of this title, in
a case concerning the debtor’s spouse commenced
on the date of the filing of the petition in the case
concerning the debtor, whether or not discharge of
the debt based on such community claim is
waived.

37a
(b)

Subsection (a)(3) of this section does not apply if –
(1)(A) the debtor’s spouse is a debtor in a
case under this title, or a bankrupt or a debtor
in a case under the Bankruptcy Act, commenced within six years of the date of the filing of the petition in the case concerning the
debtor; and
(B) the court does not grant the debtor’s
spouse a discharge in such case concerning
the debtor’s spouse; or
(2)(A) the court would not grant the debtor’s
spouse a discharge in a case under chapter 7
of this title concerning such spouse commenced on the date of the filing of the petition
in the case concerning the debtor; and
(B) a determination that the court would
not so grant such discharge is made by the
bankruptcy court within the time and in the
manner provided for a determination under
section 727 of this title of whether a debtor is
granted a discharge.

(c) An agreement between a holder of a claim and the
debtor, the consideration for which, in whole or in part,
is based on a debt that is dischargeable in a case under
this title is enforceable only to any extent enforceable
under applicable nonbankruptcy law, whether or not
discharge of such debt is waived, only if –
(1) such agreement was made before the granting of the discharge under section 727, 1141, 1192,
1228, or 1328 of this title;

38a
(2) the debtor received the disclosures described
in subsection (k) at or before the time at which the
debtor signed the agreement;
(3) such agreement has been filed with the court
and, if applicable, accompanied by a declaration or
an affidavit of the attorney that represented the
debtor during the course of negotiating an agreement under this subsection, which states that –
(A) such agreement represents a fully informed and voluntary agreement by the
debtor;
(B) such agreement does not impose an undue hardship on the debtor or a dependent of
the debtor; and
(C) the attorney fully advised the debtor of
the legal effect and consequences of –
(i) an agreement of the kind specified in
this subsection; and
(ii) any default under such an agreement;
(4) the debtor has not rescinded such agreement
at any time prior to discharge or within sixty days
after such agreement is filed with the court,
whichever occurs later, by giving notice of rescission to the holder of such claim;
(5) the provisions of subsection (d) of this section
have been complied with; and
(6)(A) in a case concerning an individual who
was not represented by an attorney during the
course of negotiating an agreement under this

39a
subsection, the court approves such agreement
as –
(i) not imposing an undue hardship on the
debtor or a dependent of the debtor; and
(ii)

in the best interest of the debtor.

(B) Subparagraph (A) shall not apply to the extent that such debt is a consumer debt secured by
real property.
(d) In a case concerning an individual, when the
court has determined whether to grant or not to grant
a discharge under section 727, 1141, 1192, 1228, or
1328 of this title, the court may hold a hearing at which
the debtor shall appear in person. At any such hearing,
the court shall inform the debtor that a discharge has
been granted or the reason why a discharge has not
been granted. If a discharge has been granted and if
the debtor desires to make an agreement of the kind
specified in subsection (c) of this section and was not
represented by an attorney during the course of negotiating such agreement, then the court shall hold a
hearing at which the debtor shall appear in person and
at such hearing the court shall –
(1)

inform the debtor –
(A) that such an agreement is not required
under this title, under nonbankruptcy law, or
under any agreement not made in accordance
with the provisions of subsection (c) of this
section; and
(B)

of the legal effect and consequences of –

40a
(i) an agreement of the kind specified in
subsection (c) of this section; and
(ii) a default under such an agreement;
and
(2) determine whether the agreement that the
debtor desires to make complies with the requirements of subsection (c)(6) of this section, if the consideration for such agreement is based in whole or
in part on a consumer debt that is not secured by
real property of the debtor.
(e) Except as provided in subsection (a)(3) of this section, discharge of a debt of the debtor does not affect
the liability of any other entity on, or the property of
any other entity for, such debt.
(f ) Nothing contained in subsection (c) or (d) of this
section prevents a debtor from voluntarily repaying
any debt.
(g)(1)(A) After notice and hearing, a court that enters an order confirming a plan of reorganization under chapter 11 may issue, in connection with such
order, an injunction in accordance with this subsection
to supplement the injunctive effect of a discharge under this section.
(B) An injunction may be issued under subparagraph (A) to enjoin entities from taking legal action for
the purpose of directly or indirectly collecting, recovering, or receiving payment or recovery with respect to
any claim or demand that, under a plan of reorganization, is to be paid in whole or in part by a trust described in paragraph (2)(B)(i), except such legal actions

41a
as are expressly allowed by the injunction, the confirmation order, or the plan of reorganization.
(2)(A) Subject to subsection (h), if the requirements
of subparagraph (B) are met at the time an injunction
described in paragraph (1) is entered, then after entry
of such injunction, any proceeding that involves the validity, application, construction, or modification of such
injunction, or of this subsection with respect to such
injunction, may be commenced only in the district
court in which such injunction was entered, and such
court shall have exclusive jurisdiction over any such
proceeding without regard to the amount in controversy.
(B) The requirements of this subparagraph are
that –
(i) the injunction is to be implemented in connection with a trust that, pursuant to the plan of reorganization –
(I) is to assume the liabilities of a debtor
which at the time of entry of the order for relief has been named as a defendant in personal injury, wrongful death, or propertydamage actions seeking recovery for damages
allegedly caused by the presence of, or exposure to, asbestos or asbestos-containing products;
(II) is to be funded in whole or in part by the
securities of 1 or more debtors involved in
such plan and by the obligation of such debtor
or debtors to make future payments, including
dividends;

42a
(III) is to own, or by the exercise of rights
granted under such plan would be entitled to
own if specified contingencies occur, a majority of the voting shares of –
(aa)

each such debtor;

(bb) the parent corporation of each
such debtor; or
(cc) a subsidiary of each such debtor
that is also a debtor; and
(IV) is to use its assets or income to pay
claims and demands; and
(ii) subject to subsection (h), the court determines that –
(I) the debtor is likely to be subject to substantial future demands for payment arising
out of the same or similar conduct or events
that gave rise to the claims that are addressed
by the injunction;
(II) the actual amounts, numbers, and timing of such future demands cannot be determined;
(III) pursuit of such demands outside the
procedures prescribed by such plan is likely to
threaten the plan’s purpose to deal equitably
with claims and future demands;
(IV) as part of the process of seeking confirmation of such plan –
(aa) the terms of the injunction proposed to be issued under paragraph

43a
(1)(A), including any provisions barring
actions against third parties pursuant to
paragraph (4)(A), are set out in such plan
and in any disclosure statement supporting the plan; and
(bb) a separate class or classes of the
claimants whose claims are to be addressed by a trust described in clause (i)
is established and votes, by at least 75
percent of those voting, in favor of the
plan; and
(V) subject to subsection (h), pursuant to
court orders or otherwise, the trust will operate through mechanisms such as structured,
periodic, or supplemental payments, pro rata
distributions, matrices, or periodic review of
estimates of the numbers and values of present claims and future demands, or other comparable mechanisms, that provide reasonable
assurance that the trust will value, and be in
a financial position to pay, present claims and
future demands that involve similar claims in
substantially the same manner.
(3)(A) If the requirements of paragraph (2)(B) are
met and the order confirming the plan of reorganization was issued or affirmed by the district court that
has jurisdiction over the reorganization case, then after the time for appeal of the order that issues or affirms the plan –
(i) the injunction shall be valid and enforceable
and may not be revoked or modified by any court

44a
except through appeal in accordance with paragraph (6);
(ii) no entity that pursuant to such plan or
thereafter becomes a direct or indirect transferee
of, or successor to any assets of, a debtor or trust
that is the subject of the injunction shall be liable
with respect to any claim or demand made against
such entity by reason of its becoming such a transferee or successor; and
(iii) no entity that pursuant to such plan or
thereafter makes a loan to such a debtor or trust
or to such a successor or transferee shall, by reason of making the loan, be liable with respect to
any claim or demand made against such entity,
nor shall any pledge of assets made in connection
with such a loan be upset or impaired for that reason;
(B)

Subparagraph (A) shall not be construed to –
(i) imply that an entity described in subparagraph (A)(ii) or (iii) would, if this paragraph were
not applicable, necessarily be liable to any entity
by reason of any of the acts described in subparagraph (A);
(ii) relieve any such entity of the duty to comply
with, or of liability under, any Federal or State law
regarding the making of a fraudulent conveyance
in a transaction described in subparagraph (A)(ii)
or (iii); or
(iii) relieve a debtor of the debtor’s obligation to
comply with the terms of the plan of reorganization, or affect the power of the court to exercise its

45a
authority under sections 1141 and 1142 to compel
the debtor to do so.
(4)(A)(i) Subject to subparagraph (B), an injunction
described in paragraph (1) shall be valid and enforceable against all entities that it addresses.
(ii) Notwithstanding the provisions of section 524(e),
such an injunction may bar any action directed against
a third party who is identifiable from the terms of such
injunction (by name or as part of an identifiable group)
and is alleged to be directly or indirectly liable for the
conduct of, claims against, or demands on the debtor to
the extent such alleged liability of such third party
arises by reason of –
(I) the third party’s ownership of a financial interest in the debtor, a past or present affiliate of
the debtor, or a predecessor in interest of the
debtor;
(II) the third party’s involvement in the management of the debtor or a predecessor in interest
of the debtor, or service as an officer, director or
employee of the debtor or a related party;
(III) the third party’s provision of insurance to
the debtor or a related party; or
(IV) the third party’s involvement in a transaction changing the corporate structure, or in a loan
or other financial transaction affecting the financial condition, of the debtor or a related party, including but not limited to –

46a
(aa) involvement in providing financing
(debt or equity), or advice to an entity involved in such a transaction; or
(bb) acquiring or selling a financial interest
in an entity as part of such a transaction.
(iii) As used in this subparagraph, the term “related
party” means –
(I)

a past or present affiliate of the debtor;

(II)

a predecessor in interest of the debtor; or

(III)
in –

any entity that owned a financial interest

(aa)

the debtor;

(bb)
or

a past or present affiliate of the debtor;

(cc)

a predecessor in interest of the debtor.

(B) Subject to subsection (h), if, under a plan of reorganization, a kind of demand described in such plan is
to be paid in whole or in part by a trust described in
paragraph (2)(B)(i) in connection with which an injunction described in paragraph (1) is to be implemented,
then such injunction shall be valid and enforceable
with respect to a demand of such kind made, after such
plan is confirmed, against the debtor or debtors involved, or against a third party described in subparagraph (A)(ii), if –
(i) as part of the proceedings leading to issuance
of such injunction, the court appoints a legal representative for the purpose of protecting the rights

47a
of persons that might subsequently assert demands of such kind, and
(ii) the court determines, before entering the order confirming such plan, that identifying such
debtor or debtors, or such third party (by name or
as part of an identifiable group), in such injunction
with respect to such demands for purposes of this
subparagraph is fair and equitable with respect to
the persons that might subsequently assert such
demands, in light of the benefits provided, or to be
provided, to such trust on behalf of such debtor or
debtors or such third party.
(5) In this subsection, the term “demand” means a
demand for payment, present or future, that –
(A) was not a claim during the proceedings leading to the confirmation of a plan of reorganization;
(B) arises out of the same or similar conduct or
events that gave rise to the claims addressed by
the injunction issued under paragraph (1); and
(C) pursuant to the plan, is to be paid by a trust
described in paragraph (2)(B)(i).
(6) Paragraph (3)(A)(i) does not bar an action taken
by or at the direction of an appellate court on appeal of
an injunction issued under paragraph (1) or of the order of confirmation that relates to the injunction.
(7) This subsection does not affect the operation of
section 1144 or the power of the district court to refer
a proceeding under section 157 of title 28 or any reference of a proceeding made prior to the date of the enactment of this subsection.

48a
(h) Application to existing injunctions. – For
purposes of subsection (g) –
(1) subject to paragraph (2), if an injunction of
the kind described in subsection (g)(1)(B) was issued before the date of the enactment of this Act,
as part of a plan of reorganization confirmed by an
order entered before such date, then the injunction
shall be considered to meet the requirements of
subsection (g)(2)(B) for purposes of subsection
(g)(2)(A), and to satisfy subsection (g)(4)(A)(ii), if –
(A) the court determined at the time the
plan was confirmed that the plan was fair and
equitable in accordance with the requirements of section 1129(b);
(B) as part of the proceedings leading to issuance of such injunction and confirmation of
such plan, the court had appointed a legal representative for the purpose of protecting the
rights of persons that might subsequently assert demands described in subsection (g)(4)(B)
with respect to such plan; and
(C) such legal representative did not object
to confirmation of such plan or issuance of
such injunction; and
(2) for purposes of paragraph (1), if a trust described in subsection (g)(2)(B)(i) is subject to a
court order on the date of the enactment of this Act
staying such trust from settling or paying further
claims –
(A) the
requirements
of
subsection
(g)(2)(B)(ii)(V) shall not apply with respect to

49a
such trust until such stay is lifted or dissolved; and
(B) if such trust meets such requirements
on the date such stay is lifted or dissolved,
such trust shall be considered to have met
such requirements continuously from the date
of the enactment of this Act.
(i) The willful failure of a creditor to credit payments
received under a plan confirmed under this title, unless the order confirming the plan is revoked, the plan
is in default, or the creditor has not received payments
required to be made under the plan in the manner required by the plan (including crediting the amounts required under the plan), shall constitute a violation of
an injunction under subsection (a)(2) if the act of the
creditor to collect and failure to credit payments in the
manner required by the plan caused material injury to
the debtor.
(j) Subsection (a)(2) does not operate as an injunction
against an act by a creditor that is the holder of a secured claim, if –
(1) such creditor retains a security interest in
real property that is the principal residence of the
debtor;
(2) such act is in the ordinary course of business
between the creditor and the debtor; and
(3) such act is limited to seeking or obtaining periodic payments associated with a valid security
interest in lieu of pursuit of in rem relief to enforce
the lien.

50a
(k)(1) The disclosures required under subsection
(c)(2) shall consist of the disclosure statement described in paragraph (3), completed as required in that
paragraph, together with the agreement specified in
subsection (c), statement, declaration, motion and order described, respectively, in paragraphs (4) through
(8), and shall be the only disclosures required in connection with entering into such agreement.
(2) Disclosures made under paragraph (1) shall be
made clearly and conspicuously and in writing. The
terms “Amount Reaffirmed” and “Annual Percentage
Rate” shall be disclosed more conspicuously than other
terms, data or information provided in connection with
this disclosure, except that the phrases “Before agreeing to reaffirm a debt, review these important disclosures” and “Summary of Reaffirmation Agreement”
may be equally conspicuous. Disclosures may be made
in a different order and may use terminology different
from that set forth in paragraphs (2) through (8), except that the terms “Amount Reaffirmed” and “Annual
Percentage Rate” must be used where indicated.
(3) The disclosure statement required under this
paragraph shall consist of the following:
(A) The statement: “Part A: Before agreeing to
reaffirm a debt, review these important disclosures:”;
(B) Under the heading “Summary of Reaffirmation Agreement”, the statement: “This Summary is
made pursuant to the requirements of the Bankruptcy Code”;

51a
(C) The “Amount Reaffirmed”, using that term,
which shall be –
(i) the total amount of debt that the debtor
agrees to reaffirm by entering into an agreement of the kind specified in subsection (c),
and
(ii) the total of any fees and costs accrued as
of the date of the disclosure statement, related
to such total amount.
(D) In conjunction with the disclosure of the
“Amount Reaffirmed”, the statements –
(i) “The amount of debt you have agreed to
reaffirm”; and
(ii) “Your credit agreement may obligate you
to pay additional amounts which may come
due after the date of this disclosure. Consult
your credit agreement.”.
(E) The “Annual Percentage Rate”, using that
term, which shall be disclosed as –
(i) if, at the time the petition is filed, the
debt is an extension of credit under an open
end credit plan, as the terms “credit” and
“open end credit plan” are defined in section
103 of the Truth in Lending Act, then –
(I) the annual percentage rate determined under paragraphs (5) and (6) of
section 127(b) of the Truth in Lending
Act, as applicable, as disclosed to the
debtor in the most recent periodic statement prior to entering into an agreement
of the kind specified in subsection (c) or, if

52a
no such periodic statement has been
given to the debtor during the prior 6
months, the annual percentage rate as it
would have been so disclosed at the time
the disclosure statement is given to the
debtor, or to the extent this annual percentage rate is not readily available or
not applicable, then
(II) the simple interest rate applicable
to the amount reaffirmed as of the date
the disclosure statement is given to the
debtor, or if different simple interest rates
apply to different balances, the simple interest rate applicable to each such balance, identifying the amount of each such
balance included in the amount reaffirmed, or
(III) if the entity making the disclosure
elects, to disclose the annual percentage
rate under subclause (I) and the simple
interest rate under subclause (II); or
(ii) if, at the time the petition is filed, the
debt is an extension of credit other than under
an open end credit plan, as the terms “credit”
and “open end credit plan” are defined in section 103 of the Truth in Lending Act, then –
(I) the annual percentage rate under
section 128(a)(4) of the Truth in Lending
Act, as disclosed to the debtor in the most
recent disclosure statement given to the
debtor prior to the entering into an agreement of the kind specified in subsection
(c) with respect to the debt, or, if no such

53a
disclosure statement was given to the
debtor, the annual percentage rate as it
would have been so disclosed at the time
the disclosure statement is given to the
debtor, or to the extent this annual percentage rate is not readily available or
not applicable, then
(II) the simple interest rate applicable
to the amount reaffirmed as of the date
the disclosure statement is given to the
debtor, or if different simple interest rates
apply to different balances, the simple interest rate applicable to each such balance, identifying the amount of such
balance included in the amount reaffirmed, or
(III) if the entity making the disclosure
elects, to disclose the annual percentage
rate under (I) and the simple interest rate
under (II).
(F) If the underlying debt transaction was disclosed as a variable rate transaction on the most
recent disclosure given under the Truth in Lending Act, by stating “The interest rate on your loan
may be a variable interest rate which changes
from time to time, so that the annual percentage
rate disclosed here may be higher or lower.”
(G) If the debt is secured by a security interest
which has not been waived in whole or in part or
determined to be void by a final order of the court
at the time of the disclosure, by disclosing that a
security interest or lien in goods or property is asserted over some or all of the debts the debtor is

54a
reaffirming and listing the items and their original purchase price that are subject to the asserted
security interest, or if not a purchase-money security interest then listing by items or types and the
original amount of the loan.
(H) At the election of the creditor, a statement of
the repayment schedule using 1 or a combination
of the following –
(i) by making the statement: “Your first payment in the amount of $___ is due on ___ but
the future payment amount may be different.
Consult your reaffirmation agreement or
credit agreement, as applicable.”, and stating
the amount of the first payment and the due
date of that payment in the places provided;
(ii) by making the statement: “Your payment schedule will be:”, and describing the repayment schedule with the number, amount,
and due dates or period of payments scheduled to repay the debts reaffirmed to the extent then known by the disclosing party; or
(iii) by describing the debtor’s repayment
obligations with reasonable specificity to the
extent then known by the disclosing party.
(I) The following statement: “Note: When this
disclosure refers to what a creditor ‘may’ do, it does
not use the word ‘may’ to give the creditor specific
permission. The word ‘may’ is used to tell you what
might occur if the law permits the creditor to take
the action. If you have questions about your reaffirming a debt or what the law requires, consult
with the attorney who helped you negotiate this

55a
agreement reaffirming a debt. If you don’t have an
attorney helping you, the judge will explain the effect of your reaffirming a debt when the hearing
on the reaffirmation agreement is held.”.
(J)(1)

The following additional statements:

“Reaffirming a debt is a serious financial decision. The
law requires you to take certain steps to make sure the
decision is in your best interest. If these steps are not
completed, the reaffirmation agreement is not effective, even though you have signed it.
“1. Read the disclosures in this Part A carefully.
Consider the decision to reaffirm carefully. Then,
if you want to reaffirm, sign the reaffirmation
agreement in Part B (or you may use a separate
agreement you and your creditor agree on).
“2. Complete and sign Part D and be sure you
can afford to make the payments you are agreeing
to make and have received a copy of the disclosure
statement and a completed and signed reaffirmation agreement.
“3. If you were represented by an attorney during the negotiation of your reaffirmation agreement, the attorney must have signed the
certification in Part C.
“4. If you were not represented by an attorney
during the negotiation of your reaffirmation
agreement, you must have completed and signed
Part E.
“5. The original of this disclosure must be filed
with the court by you or your creditor. If a separate

56a
reaffirmation agreement (other than the one in
Part B) has been signed, it must be attached.
“6. If you were represented by an attorney during the negotiation of your reaffirmation agreement, your reaffirmation agreement becomes
effective upon filing with the court unless the reaffirmation is presumed to be an undue hardship
as explained in Part D.
“7. If you were not represented by an attorney
during the negotiation of your reaffirmation
agreement, it will not be effective unless the court
approves it. The court will notify you of the hearing on your reaffirmation agreement. You must attend this hearing in bankruptcy court where the
judge will review your reaffirmation agreement.
The bankruptcy court must approve your reaffirmation agreement as consistent with your best interests, except that no court approval is required
if your reaffirmation agreement is for a consumer
debt secured by a mortgage, deed of trust, security
deed, or other lien on your real property, like your
home.
“Your right to rescind (cancel) your reaffirmation
agreement. You may rescind (cancel) your reaffirmation agreement at any time before the bankruptcy
court enters a discharge order, or before the expiration
of the 60-day period that begins on the date your reaffirmation agreement is filed with the court, whichever
occurs later. To rescind (cancel) your reaffirmation
agreement, you must notify the creditor that your reaffirmation agreement is rescinded (or canceled).

57a
“What are your obligations if you reaffirm the debt? A
reaffirmed debt remains your personal legal obligation. It is not discharged in your bankruptcy case. That
means that if you default on your reaffirmed debt after
your bankruptcy case is over, your creditor may be able
to take your property or your wages. Otherwise, your
obligations will be determined by the reaffirmation
agreement which may have changed the terms of the
original agreement. For example, if you are reaffirming
an open end credit agreement, the creditor may be permitted by that agreement or applicable law to change
the terms of that agreement in the future under certain conditions.
“Are you required to enter into a reaffirmation agreement by any law? No, you are not required to reaffirm
a debt by any law. Only agree to reaffirm a debt if it is
in your best interest. Be sure you can afford the payments you agree to make.
“What if your creditor has a security interest or lien?
Your bankruptcy discharge does not eliminate any lien
on your property. A ‘lien’ is often referred to as a security interest, deed of trust, mortgage or security deed.
Even if you do not reaffirm and your personal liability
on the debt is discharged, because of the lien your creditor may still have the right to take the property securing the lien if you do not pay the debt or default on it.
If the lien is on an item of personal property that is
exempt under your State’s law or that the trustee has
abandoned, you may be able to redeem the item rather
than reaffirm the debt. To redeem, you must make a
single payment to the creditor equal to the amount of

58a
the allowed secured claim, as agreed by the parties or
determined by the court.”.
(ii) In the case of a reaffirmation under subsection (m)(2), numbered paragraph 6 in the disclosures required by clause (i) of this subparagraph
shall read as follows:
“6. If you were represented by an attorney during the negotiation of your reaffirmation agreement, your reaffirmation agreement becomes
effective upon filing with the court.”.
(4) The form of such agreement required under this
paragraph shall consist of the following:
“Part B: Reaffirmation Agreement. I (we) agree to reaffirm the debts arising under the credit agreement described below. “Brief description of credit agreement:
“Description of any changes to the credit agreement
made as part of this reaffirmation agreement:
“Signature: Date:
“Borrower:
“Co-borrower, if also reaffirming these debts:
“Accepted by creditor:
“Date of creditor acceptance:”.
(5)

The declaration shall consist of the following:
(A)

The following certification:

“Part C: Certification by Debtor’s Attorney (If Any).

59a
“I hereby certify that (1) this agreement represents a
fully informed and voluntary agreement by the debtor;
(2) this agreement does not impose an undue hardship
on the debtor or any dependent of the debtor; and (3) I
have fully advised the debtor of the legal effect and
consequences of this agreement and any default under
this agreement.
“Signature of Debtor’s Attorney: Date:”.
(B) If a presumption of undue hardship has been
established with respect to such agreement, such
certification shall state that, in the opinion of the
attorney, the debtor is able to make the payment.
(C) In the case of a reaffirmation agreement under subsection (m)(2), subparagraph (B) is not applicable.
(6)(A) The statement in support of such agreement,
which the debtor shall sign and date prior to filing with
the court, shall consist of the following:
“Part D: Debtor’s Statement in Support of Reaffirmation Agreement.
“1. I believe this reaffirmation agreement will not impose an undue hardship on my dependents or me. I can
afford to make the payments on the reaffirmed debt
because my monthly income (take home pay plus any
other income received) is $ ___, and my actual current
monthly expenses including monthly payments on
post-bankruptcy debt and other reaffirmation agreements total $ ___, leaving $ ___ to make the required
payments on this reaffirmed debt. I understand that if

60a
my income less my monthly expenses does not leave
enough to make the payments, this reaffirmation
agreement is presumed to be an undue hardship on me
and must be reviewed by the court. However, this presumption may be overcome if I explain to the satisfaction of the court how I can afford to make the payments
here: ___.
“2. I received a copy of the Reaffirmation Disclosure
Statement in Part A and a completed and signed reaffirmation agreement.”.
(B) Where the debtor is represented by an attorney
and is reaffirming a debt owed to a creditor defined in
section 19(b)(1)(A) (iv) of the Federal Reserve Act, the
statement of support of the reaffirmation agreement,
which the debtor shall sign and date prior to filing with
the court, shall consist of the following:
“I believe this reaffirmation agreement is in my financial interest. I can afford to make the payments on the
reaffirmed debt. I received a copy of the Reaffirmation
Disclosure Statement in Part A and a completed and
signed reaffirmation agreement.”.
(7) The motion that may be used if approval of such
agreement by the court is required in order for it to be
effective, shall be signed and dated by the movant and
shall consist of the following:
“Part E: Motion for Court Approval (To be completed
only if the debtor is not represented by an attorney.). I
(we), the debtor(s), affirm the following to be true and
correct:

61a
“I am not represented by an attorney in connection
with this reaffirmation agreement.
“I believe this reaffirmation agreement is in my best
interest based on the income and expenses I have disclosed in my Statement in Support of this reaffirmation agreement, and because (provide any additional
relevant reasons the court should consider):
“Therefore, I ask the court for an order approving this
reaffirmation agreement.”.
(8) The court order, which may be used to approve
such agreement, shall consist of the following:
“Court Order: The court grants the debtor’s motion and
approves the reaffirmation agreement described
above.”.
(1) Notwithstanding any other provision of this title
the following shall apply:
(1) A creditor may accept payments from a
debtor before and after the filing of an agreement
of the kind specified in subsection (c) with the
court.
(2) A creditor may accept payments from a
debtor under such agreement that the creditor believes in good faith to be effective.
(3) The requirements of subsections (c)(2) and
(k) shall be satisfied if disclosures required under
those subsections are given in good faith.
(m)(1) Until 60 days after an agreement of the kind
specified in subsection (c) is filed with the court (or

62a
such additional period as the court, after notice and a
hearing and for cause, orders before the expiration of
such period), it shall be presumed that such agreement
is an undue hardship on the debtor if the debtor’s
monthly income less the debtor’s monthly expenses as
shown on the debtor’s completed and signed statement
in support of such agreement required under subsection (k)(6)(A) is less than the scheduled payments on
the reaffirmed debt. This presumption shall be reviewed by the court. The presumption may be rebutted
in writing by the debtor if the statement includes an
explanation that identifies additional sources of funds
to make the payments as agreed upon under the terms
of such agreement. If the presumption is not rebutted
to the satisfaction of the court, the court may disapprove such agreement. No agreement shall be disapproved without notice and a hearing to the debtor and
creditor, and such hearing shall be concluded before
the entry of the debtor’s discharge.
(2) This subsection does not apply to reaffirmation
agreements where the creditor is a credit union, as defined in section 19(b) (1)(A)(iv) of the Federal Reserve
Act.

11 U.S.C. § 1123. Contents of plan
(a) Notwithstanding any otherwise applicable nonbankruptcy law, a plan shall –
(1) designate, subject to section 1122 of this title,
classes of claims, other than claims of a kind

63a
specified in section 507(a)(2), 507(a)(3),
507(a)(8) of this title, and classes of interests;

or

(2) specify any class of claims or interests that is
not impaired under the plan;
(3) specify the treatment of any class of claims or
interests that is impaired under the plan;
(4) provide the same treatment for each claim or
interest of a particular class, unless the holder of
a particular claim or interest agrees to a less favorable treatment of such particular claim or interest;
(5) provide adequate means for the plan’s implementation, such as –
(A) retention by the debtor of all or any part
of the property of the estate;
(B) transfer of all or any part of the property
of the estate to one or more entities, whether
organized before or after the confirmation of
such plan;
(C) merger or consolidation of the debtor
with one or more persons;
(D) sale of all or any part of the property of
the estate, either subject to or free of any lien,
or the distribution of all or any part of the
property of the estate among those having an
interest in such property of the estate;
(E)

satisfaction or modification of any lien;

(F) cancellation or modification of any indenture or similar instrument;

64a
(G)

curing or waiving of any default;

(H) extension of a maturity date or a change
in an interest rate or other term of outstanding securities;
(I)

amendment of the debtor’s charter; or

(J) issuance of securities of the debtor, or of
any entity referred to in subparagraph (B) or
(C) of this paragraph, for cash, for property, for
existing securities, or in exchange for claims
or interests, or for any other appropriate purpose;
(6) provide for the inclusion in the charter of the
debtor, if the debtor is a corporation, or of any corporation referred to in paragraph (5)(B) or (5)(C)
of this subsection, of a provision prohibiting the issuance of nonvoting equity securities, and providing, as to the several classes of securities
possessing voting power, an appropriate distribution of such power among such classes, including,
in the case of any class of equity securities having
a preference over another class of equity securities
with respect to dividends, adequate provisions for
the election of directors representing such preferred class in the event of default in the payment
of such dividends;
(7) contain only provisions that are consistent
with the interests of creditors and equity security
holders and with public policy with respect to the
manner of selection of any officer, director, or trustee under the plan and any successor to such officer, director, or trustee; and

65a
(8) in a case in which the debtor is an individual,
provide for the payment to creditors under the
plan of all or such portion of earnings from personal services performed by the debtor after the
commencement of the case or other future income
of the debtor as is necessary for the execution of
the plan.
(b) Subject to subsection (a) of this section, a plan
may –
(1) impair or leave unimpaired any class of
claims, secured or unsecured, or of interests;
(2) subject to section 365 of this title, provide for
the assumption, rejection, or assignment of any executory contract or unexpired lease of the debtor
not previously rejected under such section;
(3)

provide for –
(A) the settlement or adjustment of any
claim or interest belonging to the debtor or to
the estate; or
(B) the retention and enforcement by the
debtor, by the trustee, or by a representative
of the estate appointed for such purpose, of
any such claim or interest;

(4) provide for the sale of all or substantially all
of the property of the estate, and the distribution
of the proceeds of such sale among holders of
claims or interests;
(5) modify the rights of holders of secured
claims, other than a claim secured only by a security interest in real property that is the debtor’s

66a
principal residence, or of holders of unsecured
claims, or leave unaffected the rights of holders of
any class of claims; and
(6) include any other appropriate provision not
inconsistent with the applicable provisions of this
title.
(c) In a case concerning an individual, a plan proposed by an entity other than the debtor may not provide for the use, sale, or lease of property exempted
under section 522 of this title, unless the debtor consents to such use, sale, or lease.
(d) Notwithstanding subsection (a) of this section
and sections 506(b), 1129(a)(7), and 1129(b) of this title, if it is proposed in a plan to cure a default the
amount necessary to cure the default shall be determined in accordance with the underlying agreement
and applicable nonbankruptcy law.

67a
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF MONTANA
)
)
YELLOWSTONE MOUNTAIN ) Case No. 08-61570-11
CLUB, LLC, et al.,
) Jointly Administered
)
Debtors
)
In re

ORDER CONFIRMING DEBTORS’
PROPOSED PLAN OF REORGANIZATION
At Butte in said District this 2nd day of June,
2009.
A hearing under 11 U.S.C. § 1128(a) and Bankruptcy Rules 9019 and 3020(b)(2) to consider the confirmation of the Plan of Reorganization (the “Plan”) for
the YELLOWSTONE MOUNTAIN CLUB LLC, YELLOWSTONE DEVELOPMENT LLC, BIG SKY RIDGE
LLC and YELLOWSTONE CLUB CONSTRUCTION
COMPANY, INC. (“Debtors”), after due and proper
notice, was held on May 18, 2009, (the “Confirmation
Hearing”), in Butte. Appearances at the confirmation
hearing were as indicated in the Memorandum of Decision setting forth findings of fact and conclusions of
law regarding Debtors’ proposed plan of reorganization entered this same date. In this Confirmation Order (“Order”) capitalized terms not defined herein have
the meaning ascribed to them in the Plan or in the
Findings of Fact and Conclusions of Law entered concurrently herewith unless otherwise noted.

68a
Based on the Findings of Fact and Conclusions of
Law, the other pleadings and records on file in this
case, including, inter alia and without limitation, the
Plan, the arguments of counsel, and the evidence presented at the Confirmation Hearing, and throughout
these cases, the Court has determined that entry of
this Order confirming the Plan is appropriate. Therefore,
IT IS ORDERED as follows:
1. The Third Amended Joint Plan of Reorganization filed by the Debtors at Docket Entry Numbers 947
and 995, and which incorporates the Modifications
identified in the Findings of Fact and Conclusions of
Law and the terms of the Yellowstone Club Settlement
Term Sheet, satisfies all of the requirements of confirmation set forth in 11 U.S.C. § 1129 and is hereby confirmed.
2. The Debtors, Reorganized Debtors and Liquidation Trustee are authorized to and directed to take
all actions which they deem reasonably necessary or
appropriate to implement the Plan and any agreements or settlements embodied therein, including the
Yellowstone Club Settlement Term Sheet and Trust
Agreement, in accordance with the terms thereof.
3. The provisions of the Plan and the Yellowstone
Club Settlement Term Sheet bind the Debtors, the Reorganized Debtors, the Trustee, the Disbursing Agent,
New CH YMC Acquisitions LLC, the First Lien Agent
and the First Lien Lenders and any Person receiving
property under the Plan, and any holder of a Claim

69a
against or Interest in the Debtors or the Reorganized
Debtors whether or not the Claim or Interest is impaired under the Plan and whether or not such holder
has accepted the Plan.
4. On the Effective Date, Claims against and Interests in the Debtors shall be deemed satisfied and
released to the fullest extent permitted by the Bankruptcy Code, other than the rights of Holders of Allowed Claims and Interests to receive the treatment
specified in the Plan for such Holders. The rights afforded in the Plan, and the treatment of all Claims and
Interests thereunder shall be in exchange for, and in
complete satisfaction and release of any and all Claims
and Interests that arose prior to the Confirmation
Date.
5. The provisions of the Plan and the Yellowstone
Club Settlement Term Sheet are binding upon and govern the acts of all Persons including, without limitation, all holders of Claims, Unclassified Claims and
Interests, all filing agents or officers, title agents or
companies, recorders, registrars, administrative agencies, governmental units and departments, agencies or
officials thereof, secretaries of state, and other persons
who may be required by law, the duties of their office
or contract to accept, file register, record or release any
document or instruments, or who may be required to
report or insure any title or state of title in or to any of
the assets transferred to the Reorganized Debtors or
any purchaser approved pursuant to the terms of the
Plan

70a
6. If any provision of the Plan shall be determined to be unenforceable, that determination shall
not affect any other provision of the Plan.
7. The Court shall retain jurisdiction as provided
in the Plan.
8. The provisions of Bankruptcy Rule 7062(c)
shall not apply to this Order. Further, notwithstanding
any provisions of the Plan to the contrary, the provisions of this Order and the Trust Agreement with respect to the appointment of the Trustee and other
provisions with respect to his duties under the Liquidation Trust are authorized and shall be effective immediately. The Trustee of the Liquidating Trust shall
have the authority to act or refrain from acting as set
forth in the Trust Agreement.
9. The Trustee may open and maintain such
bank accounts as may be necessary for the deposit of
any monies collected or received by the Trustee.
10. Except as otherwise expressly provided by
further order of the Court, the Trustee shall administer the Liquidation Trust out of the funds paid into the
Liquidation Trust, and the proceeds of liquidation of
the property transferred to the Trust which property
shall be all property of the Debtors other than the Project, as more particularly described in the Plan. Notwithstanding the foregoing, the Trustee shall have the
authority to borrow funds as permitted by and in accordance with the provisions of the Liquidation Trust
Agreement.

71a
11. The Trustee is authorized to pay, as or after
they have become due, all valid obligations properly incurred in connection with administration of the Trust
Assets or the exercise of his duties under this Order
and the Liquidation Trust, including, without limitation, such fees as may be payable to the office of the
United States Trustee under 28 U.S.C. § 1930.
12. In order to perform his responsibilities, the
Trustee is authorized to contract or otherwise provide
for goods, materials, services, and supplies as determined by the Trustee to be necessary and appropriate,
and to pay such sums as the Trustee determines to
be reasonable for such goods, materials, services and
supplies. The Trustee may employ as non-professional
consultants such persons as the Trustee deems appropriate, under such terms of employment as the Trustee
may deem appropriate.
13. No obligation incurred by the Trustee in the
good faith performance by the Trustee of his duties in
accordance with the orders of this Court, except to the
extent such services are found to have resulted from
willful misconduct, gross negligence, or fraudulent behavior, whether pursuant to any contract, by reason of
any tort, or otherwise shall be his personal obligation;
rather, the recourse of any person or entity to whom
the Trustee become obligated in connection with the
performance of the responsibilities, shall be solely
against the Trust Assets.
14. The Trustee is authorized to do all things
determined by him to be necessary or appropriate to

72a
protect and preserve the Trust Assets and to maintain or enhance their value or income-producing
potential, including but not necessarily limited to
retaining agents and consultants, and exercising all
of the powers, duties and other authorities as may be
provided by law or which may be necessary or appropriate in the fulfillment of his duties, and all powers
which the owner of the Trust Assets itself might exercise with respect thereto or with respect to the prosecution of any claims against third parties.
15. The Trustee may appoint attorneys, accountants and other professional services to assist in carrying out his obligations as Trustee. The Reorganized
Debtors shall reasonably cooperate with the Trustee’s
reasonable requests for information needed by the
Trustee in the performance of his duties.
16. The Trustee shall conduct a final accounting
and winding up of the Trusteeship upon his termination and shall be responsible for securing the entry of
final decrees in the Debtors’ cases.
17. The Trustee’ fees shall be based upon the
usual and customary hourly rates and the usual and
customary hourly rates of personnel to whom the duties or functions are delegated.
18. Upon the Effective Date and Closing, (as defined in the Definitive Agreement) in accordance with
Article VI, 6.12 of the Plan, Section 2 of the Definitive
Agreement and 11 U.S.C. § 1141(b) and (c), the Debtors
shall transfer (as defined in the Plan) all the Debtors’
rights, title and interest in and to all the Debtors’

73a
limited liability companies memberships, free and
clear of all liens, claims, encumbrances, charges and interests to New CH YMC Acquisition LLC.
19. Upon entry of this Order and in accordance
with the Plan, the Debtors are authorized and directed
to execute the Membership Interests Purchase Agreement and all its exhibits and attachments as described
in the Membership Interests Purchase Agreement.
This Order hereby approves the Membership Interests
Purchase Agreement and all of its exhibits and attachments and all documents contemplated in the Membership Interests Purchase Agreement.
20. The Plan and this Order shall constitute sufficient documentation to evidence any of the transfers
to New CH YMC Acquisitions LLC called for by, in and
under the Plan or Membership Interests Purchase
Agreement. No further documentation shall be necessary to give effect to such transfers of the memberships’ interests to New CH YMC Acquisition LLC as
described in the Membership Interests Purchase Agreement. After the Effective Date and Closing the Debtors
shall prepare and execute any document, agreement
or instrument necessary to effectuate the transfers to
New CH YMC Acquisitions LLC as contemplated under the Plan, the Membership Interests Purchase
Agreement or this Order.
21. Pursuant to § 1125(e) of the Bankruptcy
Code, the Debtors’ transmittal of solicitation materials
and its solicitation of acceptances of the Plan are not,
and will not be, governed by or subject to any otherwise

74a
applicable law, rule or regulation governing the solicitation of acceptance of a Chapter 11 plan or the offer,
issuance, sale or purchase of securities.
22. To the extent interests in the Equity Purchase Note, the Liquidation Trust and/or the New
Membership Interests may be deemed to constitute securities issued in accordance with the Plan, pursuant
to, and to the fullest extent permitted under § 1145 of
the Bankruptcy Code, any issuance or resale of such
securities will be exempt from Section 5 of the Securities Act of 1933, as amended, and any state or local low
requiring registration for offer or sale of a security or
registration or licensing of an issuer or underwriter of,
or broker or dealer in, a security.
23. The notice provided by the Debtors of the
Modifications was adequate and appropriate under the
circumstances and, accordingly, is approved. The Modifications: (1) comply in all respects with § 1127 of the
Bankruptcy code, Bankruptcy rule 3019 and all other
provisions of the Bankruptcy Code, and with respect to
the Claims in Classes 3 and 8, such classes were resolicited and have voted as Classes to accept the Plan as
modified in accordance with the Yellowstone Club Settlement Term Sheet; and (2) do not adversely change,
in any material respect, the treatment under the plan
of any Claims or Interests. In light of the technical or
immaterial nature of each of the Modifications, no additional disclosure under § 1125 of the Bankruptcy
Code is required with respect to the Modifications and
the notification. Therefore, pursuant to § 1127 of the
Bankruptcy Code and Bankruptcy Rule 3019, all

75a
holders of Claims that have accepted or are conclusively presumed to have accepted the Plan as filed on
May 22, 2004 are deemed to have accepted the Plan, as
modified by the Modifications.
24. As of the Effective Date and the Closing,
the release provisions, exculpation, provisions, and injunction provisions contained in the Plan are hereby
approved and shall be immediately effective on the Effective Date without further act or order of the Court.
25. Should the sale provided for in the Membership Interests Purchase Agreement fail to close by
June 30, 2009, substantially in the form and manner
contemplated by the Plan, then the provisions of the
Plan shall be null and void, and the Debtors retain all
of their rights against all parties to those agreements,
and in such event, nothing herein is intended to, or
should be construed as, waiving or releasing (a) whatever rights the Debtors have for any and all amounts
due thereunder or any and all other rights and remedies.
26. Pursuant to 11 U.S.C. § 1129(a)(12) all fees
payable under 28 U.S.C. § 1930 have been paid or shall
be paid pursuant to the Plan on the Effective Date, and
any fees payable under such section payable after the
Effective Date shall be paid by the Trustee. All tax returns for which extensions have not been timely requested shall be filed with the appropriate agencies.
27. Disbursements after the Effective Date and
before the entry of a closing order shall be based on
disbursements from the Trustee.

76a
28. James A. Patten is appointed Disbursing
Agent pursuant to Article VII of the Plan and shall
make such disbursements of Required Plan Payments
in accordance with Article VII of the Plan.
29. Upon the Closing or the first business day on
which a Claim entitled to receive a Required Plan Payment becomes an Allowed Claim, the Disbursing Agent
shall make the Required Plan Payment.
30. Pursuant to Article V, 5.1.2 of the Plan, the
assumption of the Assumed Obligations listed in
Schedule 1.34, Contract Assumption Schedule, is approved.
31. Pursuant to Article V, 5.1.3 of the Plan, the
assumption of the Club Membership Agreements listed
in Schedule 1.87, Member Assumption Schedule, is approved.
32. Pursuant to Article V, 5.1.4, 5.1.5, 5.1.6, and
5.1.7, the rejection of the Pioneer/Frontier Membership Agreements listed on Schedule 1.94, of the Plan
the Honorary Membership Agreement listed on Schedule 1.78 of the Plan, the Founder’s Circle Membership
Agreements listed on Schedule 1.72 of the Plan, and
the Company Member Agreements listed on Schedule
1.2.7, is approved.
33. Pursuant to Article V, 5.4, all Rejection Claims
must be filed with the Court within thirty days after
entry of this Order. Any Rejection Claim that is not
timely filed shall be forever barred and such Rejection
Claim shall not be enforceable against the Debtors or

77a
the Reorganized Debtors, the Liquidation Trust, or
New CH YMC Acquisitions LLC, unless otherwise ordered by this Court.
34. As of the Effective Date, the discharge provided for under applicable law and under Article VIII,
8.3, of the Plan and the injunction provided for under
applicable law shall be effective and binding upon all
persons and to the fullest extent provided for in the
Plan and applicable law.
35. Pursuant to Article VIII, 8.1 of the Plan, on
the Effective Date all property of the Debtors, except
as explicitly provided in the Plan and the Yellowstone
Club Settlement Term Sheet, shall revert with the Reorganized Debtors free and clear of all liens, claims and
equity interests.
36. The Third Amended Plan is without prejudice to the rights and standing of holders of any Class
A or Class B Equity Interest in the Debtors to (i) object
to any claims asserted or held by insiders, (ii) object to
the allowance or priority of any other Equity Interest,
and (iii) seek equitable subordination of any distribution rights of other Equity Interests.
37. Except as may otherwise be expressly provided in the Plan, on the Effective Date: (a) all credit
agreements, promissory notes, mortgages, security agreements, invoices, contracts, agreements and any other
documents or instruments evidencing Claims against
the Debtors, together with any and all Liens securing
the same, shall be deemed canceled, discharged and released without further act or action by and any Person

78a
under any applicable agreement, law, regulation order
or rule, (b) the obligations of the Debtors thereunder
shall be deemed cancelled, discharged and released,
and (c) all of the right, title, and interest of any holder
of such mortgages, deeds of trust, liens or other security interests, including any right to any collateral
thereunder, will revert to the Reorganized Debtors.
To the extent deemed necessary or admissible by
the Reorganized Debtors, any holder of a Claim shall
promptly provide the Reorganized Debtors with an appropriate instrument of cancellation, discharge or release, as the case may be, in suitable form for recording
wherever necessary to evidence such cancellation, discharge or release, including the cancellation, discharge
or release of any Lien securing such Claim.
38. In accordance with § 1146(c) of the Bankruptcy Code: (a) the issuance, transfer or exchange of
any security under the Plan or the making or delivery
of any instrument of transfer pursuant to, in implementation of, or as contemplated by the Plan, including, without limitation, the Equity Purchase Note, the
Liquidation Trust, the New Membership Interests, any
merger agreements or agreements of consolidation,
deeds, bills of sale or assignments executed in connection with any of the transactions contemplated under
the Plan, or the re-vesting, transfer or sale of any real
or personal property of the Debtor pursuant to, in implementation of, or as contemplated by the Plan; (b) the
making, delivery, creation, assignment, amendment or
recording of any note or other obligation for the payment of money or any mortgage, deed of trust or other

79a
security interest under, in furtherance of, or in connection with the Plan, and/or the issuance, renewal, modification or securing of indebtedness by such means;
and (c) the making, delivery or recording of any deed
or other instrument of transfer under, in furtherance
of, or in connection with, the Plan, including, without
limitation, the Order, shall not be subject to any document recording tax, stamp tax, conveyance fee or other
similar tax, mortgage tax, real estate transfer tax,
mortgage recording tax or other similar tax or governmental assessment. Each recorder of deeds or similar
official for any county, city or governmental unit in
which any instrument under the Plan is to be recorded
shall be, and hereby is, ordered and directed to accept
such instrument, without requiring the payment of
any documentary stamp tax, deed stamps, transfer tax,
intangible tax or similar tax.
39. Upon the Effective Date, the Debtors, the Reorganized Debtors and the Committee for themselves
and the Debtors’ estates shall, and shall be deemed to,
dismiss, waive and forever release with prejudice all
actual, potential or threatened claims, causes of action
and challenges that have been, might have been or
might be asserted by the Committee, the Reorganized
Debtors, the Debtors or their estates against the Prepetition Agent and Prepetition Lenders with respect to
any and all acts and omissions occurring prior to the
satisfaction of the Effectiveness Conditions excluding,
however, enforcement of this Term Sheet and the Modified Plan. The foregoing includes, without limitation,
the release of any Reserved Actions, Retained Actions

80a
and Transferred Actions, the dismissal with prejudice
of all claims, causes of action and challenges asserted
in Adversary Proceedings against the Prepetition
Lenders and Prepetition Agent or against their claims
and liens under the Prepetition Loan and any adequate protection liens of the Prepetition Agent and
Prepetition Lenders; and the waiver and release of all
possible claims under 11 U.S.C. § 506(c) against the
Prepetition Agent, the Prepetition Lenders, the Prepetition Loan Collateral and any adequate protection
liens of the Prepetition Agent and Prepetition Lenders.
40. This Court approves each and every term,
provision, and condition of the Plan and the Yellowstone Club Settlement Term Sheet and the same shall
be enforceable by and binding upon the Debtors, Reorganized Debtors’, Trustee, New CH YMC Acquisitions
LLC, the First Lien Agent and First Lien Lenders and
any Person receiving property under the Plan, and any
holder of a Claim against or Interest in the Debtors or
the Reorganized Debtors. The failure to specifically include any particular provision of the Plan, the Yellowstone Club Settlement Term Sheet, or the Definitive
Agreement in this Order shall not diminish or impair
the efficacy of such provision, it being understood the
intent of this Court is that the Plan be confirmed and
approved in its entirety.
41. Pursuant to the provisions of Bankruptcy
Rule 9019 the Yellowstone Club Settlement Term
Sheet is approved.

81a
42. The substantive consolidation of the Debtors
for distributional purposes as provided in the Third
Amended Plan is approved.
43. The bar dates for filing Administrative Claims
set forth in the Third Amended Plan are approved and
the Debtors shall promptly provide notice of such dates
to all known Holders of Administrative Claims.
44.

The Plan Supplements are approved.

45. The Debtors shall promptly provide notice of
the entry of this Confirmation Order in accordance
with the applicable Bankruptcy Rules.
46. Pursuant to Bankruptcy Rule 3020(e), this
Order shall not be stayed and shall be effective upon
its entry.
47. The provisions of this Order are nonseverable and mutually dependent.
48. This Order shall be, and hereby is, deemed in
recordable form, and any and all recording authorities
are directed to accept this Confirmation Order for filing.
BY THE COURT
/s/ Ralph B. Kirscher
HON. RALPH B. KIRSCHER
U.S. Bankruptcy Judge
United States
Bankruptcy Court
District of Montana

82a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
Timothy L. Blixseth,
Appellant,

Bankruptcy Case Nos.
08-61570; 08-61571;
08-61572; 08-61573

Yellowstone Mountain
No. CV-09-47-BU-SEH
Club, LLC,
ORDER
Yellowstone Development LLC,
Big Sky Ridge, LLC
Yellowstone Club
Construction Co., LLC
Appellees.
Pending before the Court is Appellees Yellowstone
Mountain Club, LLC and New CH YMC Acquisition,
LLC’s Motion to Dismiss Appeal as Moot. The motion
is opposed on grounds “this Court may fashion effective
relief [which] precludes a dismissal on ‘mootness’
grounds” and the “appeal is not [otherwise] equitably
moot.”1
ORDERED:
The Motion to Dismiss Appeal as Moot2 is DENIED. The merits of the issues raised by the appeal
will be addressed to the extent necessary and appropriate to do so.

1
2

Document No. 43, p. 7
Document No. 36

83a
DATED this 12th day of November, 2009.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

84a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
Timothy L. Blixseth,
Appellant,

Bankruptcy Case Nos.
08-61570; 08-61571;
08-61572; 08-61573

Yellowstone Mountain
No. CV-09-47-BU-SEH
Club, LLC,
Yellowstone Development LLC, MEMORANDUM
Big Sky Ridge, LLC
AND ORDER
Yellowstone Club
Construction Co., LLC
Appellees.
INTRODUCTION
Appellant Timothy L. Blixseth (Blixseth) appeals
from the final order of the United States Bankruptcy
Court for the District of Montana confirming the third
Chapter 11 Reorganization Plan (the Plan) of the Debtors and Appellees, Yellowstone Mountain Club, LLC,
Yellowstone Development LLC, Big Sky Ridge, LLC,
and Yellowstone Club Construction Co., LLC, (collectively the Debtors). On May 22, 2009, the Debtors filed
a Third Amended Joint Plan of Reorganization. On
June 2, 2009, Bankruptcy Judge Ralph B. Kirscher issued his Memorandum of Decision and Order confirming the Plan. This appeal followed. This Court has
jurisdiction under 28 U.S.C. § 158(a).

85a
ISSUES PRESENTED
Three issues are presented on appeal:
1. Whether the Bankruptcy Court erred in
approving the Plan’s exculpatory clauses and
releases in favor of third parties in the Plan?
2. Whether the Bankruptcy Court erred in
determining the Plan was proposed in good
faith when the question of Debtors’ bad faith
remained as an unresolved factual issue in a
pending adversary proceeding?
3. Whether the Bankruptcy Court erred in
approving the settlements incorporated into
the Plan without a motion to approve the settlement, notice of motion, and hearing as required under Fed. R. Bankr. P. 9019(a)?
STANDARD OF REVIEW
The Bankruptcy Court’s findings of fact are reviewed for clear error. Fed. R. Bankr. P. 8013. Its conclusions of law are reviewed de novo. See In re Rains,
428 F.3d 893, 900 (9th Cir. 2005); In re Urban, 375 B.R.
882, 887 (B.A.P. 9th Cir. 2007).
DISCUSSION
I.
Approval of a settlement in bankruptcy is governed by Fed. R. Bankr. P. 9019 and 2002. Rule 9019(a)
provides:

86a
On motion by the trustee and after notice and
a hearing, the court may approve a compromise or settlement, Notice shall be given to
creditors, the United States trustee, the
debtor, and indenture trustees as provided in
Rule 2002 and to any other entity as the court
may direct.
Rule 2002(a) and (3) require that:
(a) . . . the debtor, the trustee, all creditors and indenture trustees [be given] at least
21 days’ notice by mail of:
...
(3) the hearing on approval of a
compromise or settlement of a controversy other than approval of an
agreement pursuant to Rule 4001(d),
unless the court for cause shown directs that notice not be sent.
Local Bankruptcy Rule 9013-I also prescribes particulars of form and content for motions and notice of opportunity to respond.
The language and directives of the rules are clear
and unambiguous and not to be disregarded. In this
case, settlements which had been negotiated were approved by the Court at the confirmation hearing without notices in the form and as required under the
applicable rules. Appropriate opportunity to be heard
and to object was not afforded. The failure to provide
required notice and opportunity to respond was plain
error.

87a
II.
Section 8.4 of the Plan purports on its face to identify certain persons and entities none of whom shall:
[I]ncur any liability to any Person for any act
or omission in connection with, relating to or
arising out of the Chapter 11 Cases, the formulation, negotiation, implementation, confirmation or consummation of this Plan, the
Disclosure Statement, or any contract, instrument, release or other agreement or document
entered into during the Chapter 11 Cases otherwise created in connection with this Plan;
provided, however, that nothing in this Section . . . shall be construed to release or exculpate any Exculpated Party from willful
misconduct or gross negligence as determined
by a Final Order or any breach of the Definitive Agreement or any documents entered
into in connection therewith.
It is a basic tenant of statute (11 U.S.C. § 524(e))
that “discharge of a debt of the debtor does not affect
the liability of any other entity on, or the property of
any other entity for, such debt.” The Ninth Circuit
Court of Appeals has consistently recognized and applied this rule. See In re American Hardwoods, Inc.,
885 F.2d 621, 626 (9th Cir. 1989); In re Lowenschuss,
67 F.3d 1394, 1401-02 (9th Cir. 1995). Here, the language of Section 8.4, whatever its intended scope may
have been, goes well beyond the limitation of Section
524(e). Its approval was plain error. See In re Lowenschuss, 67 F.3d at 1401-02.

88a
On remand, the Bankruptcy Court is encouraged,
to the extent feasible, to explicitly identify and delineate those persons or representatives determined to be
within the scope of the release parameters of Section
524(e) and to state the reasons why it reached such
conclusions. Such delineation could significantly reduce the probability of further litigation directed to the
scope of exculpation and release.
III.
Appellant also contends the Bankruptcy Court
erred in its finding that the debtor acted in good faith
in filing the Plan, citing an unresolved adversary proceeding raising bad faith issues as precluding such a
good faith filing. Given the Court’s ruling on issues I
and II, determination of this issue on the present record is premature and unnecessary at this time. The
Bankruptcy Court, on remand, will have a full and appropriate opportunity to address and act upon all issues relating to the Plan, following appropriate notice
and opportunity for hearing.
ORDER
Upon de novo review, this Court finds that the
Bankruptcy Court erred when it proceeded to confirmation of the Plan without appropriate notice and opportunity to object, and in releasing persons, firms and
entities from liability contrary to 11 U.S.C. § 524(e).
The decision of the Bankruptcy Court is REVERSED

89a
and REMANDED for further proceedings consistent
with this Memorandum and Order.
DATED this 2nd day of November, 2010.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

90a
UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF MONTANA
In re
YELLOWSTONE
MOUNTAIN CLUB, LLC,

Case No. 08-61570-11

Debtor.
In re
YELLOWSTONE
DEVELOPMENT, LLC,

Case No. 08-61571-11

Debtor.
In re
YELLOWSTONE CLUB
CONSTRUCTION
COMPANY, LLC,

Case No. 08-61573-11

Debtor.
In re
BIG SKY RIDGE, LLC,

Case No. 08-61572-11

Debtor.
MEMORANDUM of DECISION
At Butte in said District this 30th day of September, 2011.
The Court is tasked with writing yet another
chapter in the Yellowstone Club bankruptcy saga,
which has been ongoing for almost three years. If this
were a book, the reader would most likely read the
chapters of the saga in sequence and in a relatively

91a
compressed period of time. But this is not a novel and
one cannot thumb through a prior chapter to glean a
forgotten fact. Thus, the Court directs the reader to
prior chapters (Memoranda of Decision and Orders)
that provide some insight as to why another chapter is
necessary. Relevant facts may be found in this Court’s
Memorandum of Decision and Order entered in this
case at docket entry nos. 1025 and 1026. One may also
look at the Memoranda of Decision, Order and Judgment found at docket entry nos. 292, 293, 575 and 582
in related Adversary Proceeding 09-00014, Timothy L.
Blixseth v. Marc S. Kirschner, Trustee of the Yellowstone
Club Liquidating Trust. Along these same lines, the
Court also granted various requests for judicial notice
found at docket entry nos. 2203, 2209, 2224 (including
its attached Exhibit A summarizing the claims processed or prosecuted by the Liquidating Trustee under
the plan), 2228 and 2240.
The matter presently before the Court stems from
a Memorandum of Decision and Order entered by the
Court in the above-referenced Chapter 11 bankruptcy
cases on June 2, 2009, at docket entry nos. 1025 and
1026 approving the Yellowstone Club Settlement Term
Sheet and confirming the Debtors’ Third Amended
Joint Plan of Reorganization filed May 29, 2009, at
docket entry no. 995. Timothy L. Blixseth (“Blixseth”)
appealed this Court’s June 2, 2009, Order to the United
States District Court for the District of Montana on
three separate grounds: (1) whether this Court erred
in approving the Plan’s exculpatory clauses and releases in favor of third parties in the Plan; (2) whether

92a
this Court erred in determining the Plan was proposed
in good faith when the question of the Debtors’ bad
faith remained as an unresolved factual issue in a
pending adversary proceeding; and (3) whether this
Court erred in approving the settlement incorporated
into the Plan without a motion to approve the settlement, notice of motion, and hearing as required under
F.R.B.P. 9019(a). In a Memorandum and Order entered
November 2, 2010, United States District Judge Sam
E. Haddon declined to rule on the issue of good faith,
stating “determination of this issue on the present record is premature and unnecessary at this time.” On the
other two questions presented, Judge Haddon reversed
and remanded. First, Judge Haddon held this Court
erred when it proceeded to confirmation of the Debtors’
Plan without appropriate notice and opportunity for
all parties to object to a certain settlement that was
incorporated into the Plan. Judge Haddon also reversed and remanded, so this Court could, “to the extent feasible . . . explicitly identify and delineate those
persons or representatives determined to be within
the scope of the release parameters of Section 524(e)
and to state the reasons why it reached such conclusions.”
In an Order entered May 27, 2011, this Court
scheduled a hearing for July 11, 2011,
1. To consider whether Debtors’ Third Amended
Joint Plan of Reorganization filed May 29, 2009, at
docket entry no. 995 was proposed in good faith,

93a
2. To identify and delineate those persons or representatives who are properly within the scope, under
11 U.S.C. § 524(e), of the exculpation and limitation of
liability clause set forth in Section 8.4 of Debtors’ Third
Amended Joint Plan of Reorganization, and
3. To further consider approval of the Settlement
Term Sheet found at docket entry no 947-12.
Upon motion of Blixseth, the Court entered an Order on June 16, 2011, continuing the July 11, 2011,
hearing to July 25, 2011. By separate Order entered
July 27, 2011, this Court vacated further hearing on
whether the Debtors’ plan was proposed in good faith,
concluding nothing in Judge Haddon’s November 2,
2010, Memorandum and Order required this Court to
revisit the issue of good faith.
At the hearing held July 25 and 26, 2011, in Missoula, Blixseth was represented by Michael J. Flynn of
Boston, Massachusetts (“Flynn”), Philip H. Stillman of
Miami Beach, Florida (“Stillman”), Christopher J. Conant of Denver, Colorado and Patrick T. Fox of Helena,
Montana; Debtors were represented by James A. Patten of Billings, Montana (“Patten”) and Richard Birinyi
and Larry Ream of Seattle, Washington; Credit Suisse,
Cayman Island Branch (“Credit Suisse”), was represented by Evan Levy, Mark McDermott and Sean Marlaire of New York, New York and Richard J. Orizotti of
Butte, Montana; the Ad Hoc Group of Class B Unit
Holders was represented by Clark Whitmore of Minneapolis, Minnesota and Ronald A. Bender of Missoula, Montana; CrossHarbor Capital Partners LLC

94a
(“CrossHarbor”), New CH YMC Acquisition LLC,
CrossHarbor Institutional Partners LP and CIP Yellowstone Lending LLC were represented by Paul D.
Moore (“Moore”) and Barry D. Green of Boston, Massachusetts and Benjamin P. Hursh of Missoula, Montana;
Robert Sumpter (“Sumpter”) was represented by Stephen Mackey of Billings, Montana; Normandy Hill
Capital, LP was represented by Robert G. Burns of
New York, New York and Quentin M. Rhoades of Missoula, Montana; Marc S. Kirschner, Trustee (“Liquidating Trustee”) of the Yellowstone Club Liquidating
Trust (“YCLT”), was represented by John Turner of
Amarillo, Texas, Brian Glasser of Charleston, West Virginia and Shane Coleman and Charles Hingle of
Billings, Montana; attorney Thomas L. Hutchinson
was represented by Robert F. James of Great Falls,
Montana; attorney J. Thomas Beckett (“Beckett”) was
represented by Trent M. Gardner of Bozeman, Montana; the law firm of Garlington, Lohn & Robinson was
represented by Dale Cockrell of Kalispell, Montana;
Creditor Liquidity LP was represented by Dean A.
Stensland of Missoula, Montana; Debtors’ attorney
Patten was represented by Mike McMahon of Helena,
Montana; and Big Sky Shuttle, Inc. was represented by
Jon Binney of Missoula, Montana. Patten, Matthew
Kidd, Stephen R. Brown (“Brown”), Larry Ream, and
Beckett testified. The Court agreed to admit the transcript of Ronald Greenspan’s (“Greenspan”) – the

95a
Debtors’ chief restructuring officer – Rule 2004 examination as part of the record.1
As noted earlier, certain matters are, at the direction of Judge Haddon’s November 2, 2010, Memorandum and Order, once again before this Court. Judge
1

Counsel for CrossHarbor represented at the hearing that
the parties had agreed prior to the hearing that Greenspan’s Rule
2004 examination transcript could be admitted into evidence and
used for all purposes. Blixseth’s counsel disagreed, arguing Blixseth did not agree that Greenspan’s Rule 2004 examination transcript could be used at hearing for every purpose. Greenspan lives
in California and was not available at the time of the July 25th
hearing. Additionally, CrossHarbor’s counsel, Moore, sent various
parties an email on July 19, 2011, that reads:
Since it appears that our colloquy yesterday concerning
signing the deposition and its admission at the hearing
on Monday was not memorialized by the court reporter,
Phil and I just spoke regarding confirming it by this
email. We ordered the transcript on an expedited basis
agreed that, since Ron will be travelling [sic] to New
York on Sunday, he will attempt to review and sign it,
and make any corrections before he leaves, in which
case Andy will provide us changes at or before the hearing. If Ron is unable to do so, we all agreed that the
deposition can nevertheless be used at the hearing on
Monday as if signed by Mr. Greenspan.
Andy-Let us know if this differs in any way from your
recollection, and Phil, feel free to advise if I got it wrong
in any way. Otherwise, just reply all to this email confirming our agreement”
Patten responded on July 19, 2011: “That is my recollection and
understanding.” Stillman did not respond, prompting Moore to
send another email the following day asking Stillman “did you
confirm email yesterday?” Stillman responded: “I didn’t, but I do.”
The email exchange clearly establishes that Blixseth’s counsel
was agreeable to using Greenspan’s deposition for all purposes at
the hearing scheduled for July 25, 2011.

96a
Haddon’s Memorandum and Order is clear, unambiguous and, in this Court’s opinion, quite narrow. First,
Judge Haddon held this Court erred when it proceeded
to confirm the Debtors’ Third Amended Joint Plan of
Reorganization without appropriate notice and opportunity for all parties to object to the Yellowstone Club
Settlement Term Sheet (“Settlement Term Sheet”)
filed May 22, 2009, at docket entry 947-12, which Settlement Term Sheet was incorporated into the Debtors’
Third Amended Joint Plan of Reorganization. The
Court’s Orders of May 27, 2011, and June 16, 2011, setting approval of the Settlement Term Sheet for hearing
on July 25, 2011, satisfy any notice required by F.R.B.P.
2002 and F.R.B.P. 9019.
I.

The Settlement Term Sheet.

In response to this Court’s notice and presumably
in an effort to satisfy F.R.B.P. 9019, Debtors, CrossHarbor and New CH YMC Acquisition, LLC filed on June
10, 2011, a Joint Motion for Order Pursuant to Bankruptcy Rule 9019 Authorizing and Approving the Yellowstone Club Settlement Term Sheet Nunc Pro Tunc
(“Rule 9019 Motion”). Sumpter (dkt 2186), Red Rock
Investments, LLC (dkt 2189), Creditor Liquidity, LP
(dkt 2196), K & L Gates LLP (dkt 2197) and Blixseth
filed objections to the Debtors, CrossHarbor and New
CH YMC Acquisition, LLC’s Rule 9019 Motion.
Sumpter objects to approval of the Settlement
Term Sheet on three grounds. First, Sumpter argues
that the Settlement Term Sheet vacates the Court’s

97a
Partial and Interim Order in Adversary Proceeding 0900014. Second, Sumpter takes issue with the composition of YCLT’s liquidating trust board. Finally, Sumpter raises several arguments that challenge the
Settlement Term Sheet’s treatment of Class 4 claims.
In particular, Sumpter argues the Settlement Term
Sheet “is not fair and equitable or in the best interests
of the estate” because of the treatment of Class 4 creditors who were not designated as trade creditors: “the
unpaid, unsecured claim holders are now partially put
into the fourth tranche on a pari passu basis with
Credit Suisse and subordinate to the purchaser of the
Trade Creditor claims.” Red Rock Investments, LLC
and K&L Gates LLP’s skeletal objections echo Sumpter’s objection that the Settlement Term Sheet provides for disparate treatment of Class 4 creditors.
Creditor Liquidity, LP also objects to approval of the
Settlement Term Sheet on grounds it violates the requirements of 11 U.S.C. § 1123(a)(4). In addition, Creditor Liquidity, LP argues the Settlement Term Sheet
inequitably modified the Debtors’ Second Amended
Plan, the plan upon which ballots were cast. Finally,
Creditor Liquidity, LP argues the Settlement Term
Sheet does not result in each holder of an impaired
class receiving or retaining equal or greater value than
the holder would have received under a Chapter 7 liquidation in violation of 11 U.S.C. § 1129(a)(7)(A).
The Court notes that none of the aforementioned
parties appeared at the duly noticed confirmation
hearing held May 18, 2009. Moreover, Red Rock Investments, LLC, K&L Gates LLP and Credit Liquidity, LP

98a
did not, prior to these additional proceedings, oppose
confirmation of the Debtors’ plan and more importantly,
were involved in subsequent proceedings that ratified
the confirmation process and preclude said parties
from taking a contrary position at this time. For instance, Red Rock Investments, LLC, through counsel,
entered into a Stipulation dated May 27, 2010, with
the Liquidating Trustee of YCLT, which Stipulation
was intended “to completely resolve all claims of Red
Rock in the Consolidated Cases and all objections to
the Red Rock Claim by [YCLT].” Specifically, the parties stipulated post-confirmation that “Red Rock[’s]
Claim shall be allowed as a Class 4 General Unsecured
Claim, pursuant to 11 U.S.C. § 502, in the Consolidated
Cases in the amount of $136,174.00. The balance of the
Red Rock Claim shall be denied. Red Rock shall have
no further claims in the Consolidated Cases.” In an Order entered May 28, 2010, the Court approved the stipulation between the Liquidating Trustee and Red Rock
Investments, LLC.
Similarly, on December 21, 2009, the Liquidating
Trustee objected to Proof of Claim No. 632 filed by K&L
Gates LLP. The Liquidating Trustee and K&L Gates
LLP subsequently entered into a stipulation on March
29, 2010, wherein they agreed:
3. The Trustee has reviewed the Claim,
the supporting and opposing arguments and
related documentation and has conferred
with the Claimant and its counsel. The Trustee has determined, and the Claimant does
hereby agree, (a) the Claim shall be allowed in

99a
the amount of $91,640.03 and (b) the balance
of the Claim, in the amount of $10,182.23
shall be deemed withdrawn and disallowed.
Allowance of the Claim in part and withdrawal of the remainder of the Claim as set
forth in the proceeding sentence shall fully
settle the Claim on its merits.
4. In addition, the Trustee and the Claimant agree that the Claim shall be treated as a
Class 4 claim, without prejudice to Claimant’s
rights to seek payment of such Claim from the
Trade Creditor Fund established under the
confirmed Plan.
5. Pursuant to Section 7.7.6 of the Third
Amended Plan of Reorganization (Dkt. 995),
the Trustee is “authorized to compromise and
settle any Disputed Claim and to execute all
necessary documents, including a stipulation
of settlement or release, in [his] sole discretion, without notice to any party, and without
the need for Bankruptcy Court’s [sic] approval.” Accordingly, this Stipulation shall be
filed without notice of the right to object or a
request for Court approval.
6. Nevertheless, the Trustee and Claimant believe the settlement proposed herein is
fair, reasonable and adequate. F.R.Bankr.P.,
Rule 9019; Martin v. Kane (In re JUG Properties), 784 F. 2d 1377, 1380-81 (9th Cir. 1986).
The Court approved the stipulation between Marc S.
Kirschner and K&L Gates LLP by Order entered
March 29, 2010.

100a
While Creditor Liquidity, LP did not, like Red Rock
Investments, LLC or K & L Gates LLP, enter into any
agreement with the Liquidating Trustee, it did not appear in this case until June 9, 2009, when it filed a Notice of Transfer of Claim, giving notice that it was the
transferee of a claim held by Border States Electric
Supply, Inc. Creditor Liquidity, LP filed similar notices
on: (1) June 30, 2009, giving notice that it was the
transferee of a claim held by Advanced Chemical Solutions; (2) July 13, 2009, giving notice that it was the
transferee of a claim held by Cypress Hotel & Spa LLC;
(3) July 16, 2009, giving notice that it was the transferee of claims held by PFG Ventures d/b/a Proforma
Infosystems, Robert Marx, Fastenal Company, Brower
Timing Systems and Okner Supply Co.; (4) July 17,
2009, giving notice that it was the transferee of claims
held by Overland West, Inc., S. Claus Commercial,
Ralph Dunning Design, Inc., and Smith & Tweed; and
(5) July 28, 2009, giving notice that it was the transferee of a claim held by Hagen O’Connell LLP. Creditor
Liquidity, LP purchased the claims of the above-referenced creditors after this Court confirmed Debtors’
Third Amended Joint Plan of Reorganization. Creditor
Liquidity, LP purchased said claims with full knowledge of the terms of the confirmed Third Amended
Joint Plan of Reorganization. Additionally, on July 31,
2009, the Official Committee of Unsecured Creditors
(“Committee”) of Yellowstone Mountain Club, LLC,
and its filed affiliates (collectively, the “Debtors”), and
the “CrossHarbor entities,” which included YC Holdings LLC, sought entry of an Order allowing certain
“trade creditor claims.” Creditor Liquidity, LP filed an

101a
objection to the request to allow certain trade creditor
claims arguing “it would be an abuse of discretion for
the Committee not to identify the claims of Boulder
[sic] and Hagen to be paid from the Trade Creditor
Fund.” Following a hearing held September 15, 2009,
the Court entered an Order on September 17, 2009,
overruling Credit Liquidity, LP’s objection and holding
“the Committee shall not be obligated to pay Liquidity,
LP any amount on its claims.” Creditor Liquidity, LP
did not appeal the Court’s September 17, 2009, Order
and such Order is now final.
Even if the Court sustained the pending objections
of Creditor Liquidity, LP, Red Rock Investments, LLC
and K & L Gates LLP to approval of the Rule 9019 Motion, the parties would still be bound by the prior Orders of this Court entered September 17, 2009, May 28,
2010, and March 29, 2010. Creditor Liquidity, LP, Red
Rock Investments, LLC and K & L Gates LLP’s objections to the pending Rule 9019 Motion are nothing
more than attempts to circumvent the effects of other
final Orders entered by this Court. Because of the final
and binding Orders discussed above, the Court deems
it appropriate to overrule the objections to approval of
the Rule 9019 Motion lodged by Creditor Liquidity, LP,
Red Rock Investments, LLC and K & L Gates LLP.
Sumpter’s opposition to approval of the Rule 9019
Motion suffers from a similar defect in that Sumpter
entered into a stipulation of settlement and allowance
of claim with the Liquidating Trustee dated February
1, 2010, which stipulation of settlement provides in relevant part:

102a
3. The Trustee has reviewed the Claim,
the supporting and opposing arguments and
related documentation and has conferred
with the Claimant and his counsel. The Trustee has determined, and the Claimant does
hereby agree, (a) the Claim shall be allowed in
the amount of $393,908.20 and (b) that portion of the Claim for penalties under state law,
totaling $434,343.90, shall be deemed withdrawn. Except as provided in paragraph 4(c),
allowance of the Claim in part and withdrawal of the remainder of the Claim as set
forth in the proceeding sentence shall fully
settle the Claim on its merits.
4. Notwithstanding anything in this
Stipulation to the contrary, Claimant may (a)
maintain and assert his Class 1 priority claim
of $10,950 against the Disbursing Agent, (b)
may assert claims or causes of action, if any,
against third parties other than the Debtors,
and (c) may assert in this case a claim, subject
to the Trustee’s right to object, for the thencurrent market value of the 2004 Porsche
Cayenne in this case if he is determined not to
be the lawful owner of said vehicle in Adversary Proceeding No. 09-00098; provided, such
claim must be asserted by written notice not
less than 30 days prior to final distribution by
the Trustee.
5. In addition, the Trustee and the
Claimant agree that the Claim shall be
treated as a Class 4 claim. The Trustee does
not oppose payment of the Claim from the
Trade Creditor Fund.

103a
6. Pursuant to Section 7.7.6 of the Third
Amended Plan of Reorganization (Dkt. 995),
the Trustee is “authorized to compromise and
settle any Disputed Claim and to execute all
necessary documents, including a stipulation
of settlement or release, in [his] sole discretion, without notice to any party, and without
the need for Bankruptcy Court’s [sic] approval.” Accordingly, this Stipulation shall be
filed without notice of the right to object or a
request for Court approval.
7. Nevertheless, the Trustee and Claimant believe the settlement proposed herein is
fair, reasonable and adequate. F.R.Bankr.P.,
Rule 9019; Martin v. Kane (In re JUG Properties), 784 F. 2d 1377, 1380-81 (9th Cir. 1986).
The above settlement was approved by the Court on
February 2, 2010. Sumpter’s claim to the 2004 Porsche
Cayenne was resolved in a Memorandum of Decision
and Judgment entered June 20, 2010, in Adversary
Proceeding No. 09-00098. Sumpter did not appeal that
decision. Finally, the Court entered a Memorandum of
Decision and Order on October 14, 2010, granting
Sumpter a separate unsecured nonpriority claim in the
amount of $250,000. Sumpter appealed the Court’s October 14, 2010, decision. In a Memorandum and Order
entered March 31, 2011, Judge Haddon affirmed this
Court’s October 14, 2010, decision.
While the Court has entered post-confirmation
decisions involving Sumpter, such decisions do not necessarily preclude Sumpter from pursuing his objections to approval of the Rule 9019 Motion. However,

104a
Sumpter’s arguments fail to consider another post-confirmation decision this Court entered in Adversary
Proceeding 09-00014 wherein the Court determined
that Blixseth was required to pay: “(1) all allowed
claims of Class 1 (priority non tax claims), Class 2
(other secured claims), Class 4 (general unsecured
claims, except claims attributable to the First Lien
Lender, if any), Class 5 (convenience claims), Class 6
(intercompany claims), Class 9 (pioneer/frontier member rejection claims), Class 10 (American bank claims),
Class 11 (allowed Prim secured claims), Class 12 (honorary member rejection claims), Class 13 (founder’s
circle member rejection claims), Class 14 (company
member rejection claims) and those claims that Blixseth identifies as “not classified” on Exhibit A attached
to his Post-Trial Brief filed March 19, 2010, at docket
entry no. 571, and (2) YCLT for the fees and costs it has
incurred, and will incur, objecting to and liquidating
such claims.” Based upon a subsequent pleading, the
Court entered an amended judgment concluding that
the sum of all claims previously mentioned was
$40,067,962.43. Sumpter should receive payment in
full of all his allowed claims when Blixseth pays the
foregoing judgment.
Blixseth raises four objections to approval of the
Rule 9019 Motion. Blixseth first argues the Debtors
are no longer debtors-in-possession and therefore, are
precluded from filing the pending Rule 9019 Motion.
Blixseth next argues Judge Haddon’s Memorandum
and Order of November 2, 2010, requires the Debtors
to “amend the Plan, revise the Disclosure Statement,

105a
and set a confirmation hearing, at which time the settlement can potentially be incorporated into a Fourth
Amended Plan.” Third, Blixseth asserts that the existing Settlement Term Sheet can not be approved because Judge Haddon rejected this Court’s approval “of
an ‘extraordinarily broad’ exculpation clause contrary
to 11 U.S.C. § 524(e)[.] Finally, Blixseth argues the
Debtors “failed to meet their burden of demonstrating
that the Settlement Term Sheet is reasonable, equitable and in the best interests of the estate and its creditors[.]”
Relevant exhibits identified by the parties with respect to the Rule 9019 Motion included CrossHarbor’s
Exhibits 16, 32, 33, 41, 45, 52, 58, 59, 60, 64, 65, 66, 67,
68, 69, 70, 71, 72, 73, 74, 75, 76, 77, 78, 79, 80, 81, 82,
83, 84, 85, 86, 87, 88, 89, 90, 96, 99, 106, 107, 109, 110,
112, 113, 114 and 118, Sumpter’s Exhibits 2, 3, 5, 7, 8,
9, 11, 12, 13, 16, 17, 18, 19, 20, 21, 23, 24, 25, 26, 27, 29,
Exhibits 1000, 1001 and 1002, along with docket entry
299 in Adversary Proceeding 09-00014 and docket entry nos. 908, 1049 and 1411 in this case. The Court also
took judicial notice of the documents filed at docket entry nos. 2199-1, 2199-3, 2240-1 and 2240-2 in this case.
The Court has no doubt that this Court’s June 2,
2009, Confirmation Order and the Third Amended
Joint Plan of Reorganization have been substantially
consummated.2 Given the substantial consummation
2

Substantial consummation is defined in 11 U.S.C. § 1101
as “(A) transfer of all or substantially all of the property proposed
by the plan to be transferred; (B) assumption by the debtor or by
the successor to the debtor under the plan of the business or of

106a
of the Debtors’ Third Amended Joint Plan of Reorganization, the Debtors are admittedly no longer debtorsin-possession. In an email dated June 28, 2011, Stillman asked the Debtors’ counsel “[w]ho is actually
acting as the DIP currently?” Patten responded that
“there is no dip, there is a reorganized debtor.” Blixseth’s Exhibit 1001. Based upon the foregoing and relying on Judge Haddon’s Memorandum and Order,
Blixseth argues that neither a debtor in possession nor
a trustee exists to file and prosecute the pending Rule
9019 Motion. This Court disagrees.
First, the Settlement Term Sheet was part of and
incorporated into the Debtors’ Third Amended Joint
Plan of Reorganization. The Settlement Term Sheet
with the attached Credit Agreement was filed as a
standalone and complete pleading on May 28, 2009, at
docket entry no. 985. Further consideration of the Settlement Term Sheet is before this Court as a result of
Judge Haddon’s decision entered November 2, 2010.
Consequently, the Rule 9019 Motion filed on June 10,
2011, is irrelevant and unnecessary. Blixseth’s argument that no party exists to file the Rule 9019 Motion,
or defend confirmation for that matter, elevates form
over substance.
Blixseth also maintains that Patten is no longer
the Debtors’ counsel and has no authority to act on the
Debtors’ behalf. Debtors filed an application to employ
the management of all or substantially all of the property dealt
with by the plan; and (C) commencement of distribution under
the plan.”

107a
Patten and the law firm of Patten, Peterman, Bekkedahl & Green on November 10, 2008, to serve as attorneys for the Debtors. Absent an objection, the Court
entered an Order on November 26, 2008, approving
the Debtors’ employment of Patten and the law firm of
Patten, Peterman, Bekkedahl & Green. Patten is still
listed as the Debtors’ counsel of record in this case. The
Debtors, who were the debtors-in-possession prior to
substantial consummation of the Third Amended Joint
Plan of Reorganization are now the Reorganized Debtors, as that term is defined in ¶ 1.107 of the Third
Amended Joint Plan of Reorganization, and are entitled to representation. As one would expect, the Reorganized Debtors are represented at this time by the
same attorney who represented them from their petition date through substantial consummation of the
Plan.
As noted above, the Settlement Term Sheet was
part of the Debtors’ Third Amended Joint Plan of Reorganization. As such, the Court’s June 2, 2009, Memorandum of Decision and Order not only approved the
Settlement Term Sheet, but also confirmed the Debtors’ Third Amended Joint Plan of Reorganization. Unfortunately, while concluding that the Settlement Term
Sheet was proposed in good faith and not by any means
forbidden and that its provisions were reasonable and
represented an appropriate compromise of disputed
matters and should be approved pursuant to the provisions of Bankruptcy Rule 9019, the Court did not
provide any meaningful discussion to support such ruling. Nevertheless, this Court did consider all “factors

108a
relevant to a full and fair assessment of the wisdom of
the proposed compromise.” Protective Comm. for Indep.
Stockholders of TMT Trailer Ferry, Inc. v. Anderson,
390 U.S. 414, 424 (1968).
In reaching its June 9, 2009, decision, the Court
considered the factors articulated in Martin v. Kane (In
re A&C Properties), 784 F.2d 1377, 1381 (9th Cir. 1986):
(a) the probability of success in the litigation;
(b) the difficulties, if any, to be encountered in
the matter of collection; (c) the complexity of
the litigation involved, and the expense, inconvenience and delay necessarily attending
it; and (d) the paramount interest of the creditors and a proper deference to their reasonable views in the premises.
As explained in A & C Properties:
The purpose of a compromise agreement is to
allow the trustee and the creditors to avoid
the expenses and burdens associated with litigating sharply contested and dubious claims.
The law favors compromise and not litigation
for its own sake, and as long as the bankruptcy court amply considered the various
factors that determined the reasonableness of
the compromise, the court’s decision must be
affirmed.
Id. at 1380-81 (citations omitted). Considering all relevant factors, this Court found that the Settlement
Term Sheet was “fair and equitable” as required by In
re A&C Properties.

109a
As aptly explained by the proponents of the Settlement Term Sheet, the fact that the settlement was
finally reached in the early hours of May 18, 2009, the
date of the confirmation hearing, after around the clock
negotiations during the preceding 48 hours, is symptomatic of the obstacles and disputes that had to be resolved if the Debtors were to achieve a successful
reorganization.3 Indeed, when the multi-day auction
was concluded on the evening of Friday, May 15, 2009,
without declaring either Credit Suisse or CrossHarbor
the successful bidder, no assurances existed that the
Debtors’ plan would be confirmed on Monday, May 18,
2009, and in fact, it was quite possible the Debtors’
cases could be converted to chapter 7. Absent a resolution, the Debtors faced numerous obstacles to confirmation, including issues under Sections 1111(b) and
1129 of the Bankruptcy Code that could have proven
insurmountable absent a consensual resolution of Credit
Suisse’s claims. In Greenspan’s words, confirmation
without the global settlement: “[W]ould have been extremely difficult, if not impossible.” Furthermore, absent confirmation of a plan by late May of 2009, the
3

Blixseth makes some incorrect declarations with respect to
the Settlement Term Sheet. For instance, in a Reply Brief filed
July 5, 2011, Blixseth’s counsel argues “the Settlement Term
Sheet had not even been finalized at the conclusion of the May 18,
2009 hearing,” and then later maintains in the same Reply Brief
that when the parties announced their settlement at the May 18,
2009, hearing, it “was still not even reduced to writing[.]” The
foregoing assertions are incorrect. I recall, and the record confirms, that the Debtors, Committee, CrossHarbor and Credit
Suisse presented the Court with a fully executed copy of the Settlement Term Sheet at the May 18, 2009, hearing.

110a
Debtors would have no further access to debtor in possession financing. As Greenspan testified:
For all practical purposes, we had none. We
did not have rights to cash collateral, we had
no more DIP capacity, and we had operating
and administrative expenses that very substantially exceeded our recurring income.
Absent the settlement, the Debtors in all likelihood
would not have survived as going concerns. In the face
of those daunting threats to confirmation, and indeed
to the Debtors’ very existence as going concerns, the
settlement forged a consensual resolution among all of
the Debtors’ principal constituencies. Among other
things, the Settlement Term Sheet paved the way to
confirmation of the Debtors’ Third Amended Join Plan
of Reorganization which: (i) increased payments by
CrossHarbor for payment of administrative expenses
and to Credit Suisse; (ii) doubled the amount of the
Trade Creditor Fund from $7.5 million to $15 million;
and (iii) provided a $2 million increase, from $375,000
to $2.375 million, in the funding of the Yellowstone
Club Liquidating Trust. Credit Suisse, likewise, made
substantial concessions critical to confirmation of the
Plan, including accepting an $80 million note in satisfaction of its $232 million secured claim and agreeing to a “waterfall” that subordinated its remaining
unsecured deficiency claim to up to $27 million of
other claims, an amount significantly greater than
that provided under this Court’s Interim and Partial
Order.

111a
As discussed above, rather than an exhaustive investigation or a mini-trial on the merits, this court
need only find that the settlement was negotiated in
good faith and is reasonable, fair and equitable. A & C
Properties, 784 F.2d at 1381. The testimony elicited
with respect to the Settlement Term Sheet prior to
the Hearing, at earlier hearings before this Court, and
during Greenspan’s deposition demonstrates that the
Settlement Term Sheet was, and remains, fair and equitable. The Court, therefore, once again approves the
Settlement Term Sheet in all respects.
II.

Identification and delineation of those
persons or representatives within the
scope of ¶ 8.4 of the Debtors’ Third
Amended Joint Plan of Reorganization.

In addition to requiring proper notice under the
Bankruptcy Rules, Judge Haddon reversed and remanded confirmation of the Debtors’ Third Amended
Joint Plan of Reorganization so this Court could, “to
the extent feasible . . . explicitly identify and delineate
those persons or representatives determined to be
within the scope of the release parameters of Section
524(e) and to state the reasons why it reached such
conclusions.” Relevant exhibits identified by the parties with respect to the exculpation clause found in the
Debtors’ Third Amended Joint Plan of Reorganization
included CrossHarbor’s Exhibits 1, 2, 3, 4, 5, 32, 44, 50,
56, 118, the Debtors’ Exhibits 1 and 3, Beckett and
Parsons Behle & Latimer’s Exhibit 1, along with the
Orders and pleadings found at docket entry nos. 220,

112a
494, 591, 596, 1186, 1224, 1612 and 1702 in this case,
and docket entry no. 292 in Adversary Proceeding 0900014.
A recurring argument raised by Blixseth in written pleadings and during oral argument is that this
Court could not conduct the hearing as scheduled because, according to Blixseth, some party would have to
file a “mysterious and as-yet undisclosed new exculpation clause[.]” Blixseth argues in an objection to the
July 25, 2011, hearing, that Debtors were required to
first submit a new disclosure statement and further
amended plan: “Because at the very least, ¶ 8.4 of the
Third Amended Plan must be changed, the Third
Amended Plan can no longer be the operative plan for
the Court to confirm.” Objection of Timothy Blixseth
to July 25, 2011 Hearing, Dkt. 2198, p.5. Continuing,
Blixseth asserts: “Instead of “patching up” the existing,
defective Plan, a new plan must be proposed that complies with the appellate court’s mandate.” Id., p.7. In
that same Objection, p.6., Blixseth offers the following
argument in support of his contention that the Debtors’ Third Amended Joint Plan of Reorganization is a
nullity that cannot be modified:
Section 1127(b) also prohibits modification of a substantially consummated plan. In
re Joint Eastern & Southern Dist. Asbestos
Litig., 982 F.2d 721, 747 (2nd Cir. 1992). The
modification required by the District Court
can only be considered a material one, given
that the Third Amended Plan is premised on
the Term Sheet and the exculpation clause.

113a
The Court need only look at Credit Suisse’s
own words in responding to Highland Capital’s Objection to the Yellowstone Term Sheet,
p. 4 [Docket No. 966], stating that alteration
of the “highly negotiated” material terms of,
among things, the scope of the exculpation
clause would require resolicitation of creditors.
Although the issue normally arises in the
context of determining the equitable mootness of an appeal – an exclusively appellate
remedy already rejected by both the District
Court and the Ninth Circuit – courts have has
been repeatedly held that modifying the scope
of releases is a prohibited material change in
a confirmed plan. In [In re Delta Airlines, Inc.,
374 B.R. 516 (S.D.N.Y. 2007], as here, the releases were an integral part of the entire Settlement and cannot be undone in isolation
from other portions of the plan that were not
reversed. In re Delta Air Lines, Inc., 374 B.R.
at 524. In In re Specialty Equip. Cos., 3 F.3d
1043, 1049 (7th Cir. 1993), the court refused to
nullify non-debtor releases because such a
remedy “would amount to imposing a different plan of reorganization on the parties.”
Similarly, in In re Metromedia, 416 F.3d 136
(2nd Cir. 2005), the court prohibited an appeal
which would have eliminated releases which
were essential to the bargain between the parties. See also, In re Enron Corp., 326 B.R. at
503 (finding appeal of exculpation provision
moot where the bankruptcy court found the
provision necessary for the negotiation of the
reorganization plan); In re Texaco Inc., 92 B.R.

114a
38, 45-50 (S.D.N.Y. 1988) (finding appeal seeking to sever and rescind releases moot because
releases were part of an “integrated settlement” and their rescission would “undermine
the entire reorganization”). The underlying
theme of these cases is that altering one important component of an approved plan is
tantamount to “imposing a different plan of
reorganization on the parties” and therefore
requires a new, Fourth Amended Plan to be
properly proposed for confirmation.
After much deliberation, I see nothing in the record that requires this Court to, as Blixseth suggests,
put the tooth paste back in the tube. First, as Blixseth
correctly acknowledges, the Debtors’ plan is substantially consummated and the Court sees no conceivable
or equitable way to put the parties back to their preconfirmation position. See In re BearingPoint, Inc., 453
B.R. 486, 495 (Bankr. S.D.N.Y. 2011) (“the Trustee is
also correct in pointing out that the request for modification of the Confirmation Order here would have no
adverse effect on creditor expectations under the plan,
or raise issues as to the unscrambling of eggs that often are a concern (typically considered in mootness
analysis) in modifying confirmation orders after the
fact”); and In re Public Service Co. of New Hampshire,
963 F.2d 469, 475 (1st Cir.1992) (“unraveling the substantially consummated . . . reorganization plan would
work incalculable inequity to many . . . who have extended credit, settled claims, relinquished collateral
and transferred or acquired property in legitimate reliance on the unstayed order of confirmation”).

115a
Second, the exculpation clause was not a last minute provision added to the Debtors’ Third Amended
Joint Plan of Reorganization without notice to all parties. Debtors filed their first Chapter 11 Plan on February 13, 2009, at docket entry no. 384. The Plan filed
February 13th contained the following Exculpation
and Limitation of Liability clause:
None of (a) the Debtors or the Reorganized Debtors, (b) the Committee, (c) the individual members of the Committee in their
capacities as such, (d) the DIP Lender, any
other lenders of (or participants in) the DIP
Loan and any agent thereof, (e) the Current
Equity Owners, (f ) CrossHarbor Capital Partners and all affiliates thereof, (g) the Acquirer,
and (h) with respect to each of the foregoing
Persons, each of their respective directors, officers, employees, agents (including Edra Blixseth, as managing member of the Current
Equity Owners), representatives, shareholders, partners, members, attorneys, investment
bankers, restructuring consultants and financial advisors in their capacities as such (collectively, the “Exculpated Parties”), shall have
or incur any liability to any Person for any act
or omission in connection with, relating to or
arising out of the Chapter 11 cases, the formulation, negotiation, implementation, confirmation or consummation of this Plan, the
Disclosure Statement, or any contract, instrument, release or other agreement or document
entered into during the Chapter 11 Cases or
otherwise created in connection with this
Plan; provided, however, that nothing in this

116a
Section 8.4 shall be construed to release or
exculpate any Exculpated Party from willful
misconduct or gross negligence as determined
by a Final Order or any breach of the Definitive Agreement or any documents entered
into in connection therewith.
Debtors’ First Amended Joint Plan of Reorganization filed March 3, 2009, at docket entry no. 516, and
Debtors’ Second Amended Joint Plan of Reorganization filed April 3, 2009, at docket entry no. 691 contained the same exculpation clause found in the Plan
filed February 13, 2009, except that the acronym “LLC”
was added as follows: “(f ) CrossHarbor Capital Partners LLC and all affiliates thereof[.]” The exculpation
clause was finally amended in the Third Amended
Joint Plan of Reorganization filed May 29, 2009, at
docket entry no. 995 to read as follows:
None of (a) the Debtors or the Reorganized Debtors, (b) the Committee, (c) the individual members of the Committee in their
capacities as such, (d) the DIP Lender, any
other lenders of (or participants in) the DIP
Loan and any agent thereof, (e) the Current
Equity Owners, (f ) CrossHarbor Capital Partners and all affiliates thereof, (g) the Acquirer,
(h) the First Lien Lenders and the First Lien
Agent, and (i) with respect to each of the foregoing Persons, each of their respective directors, officers, employees, agents (including
Edra Blixseth, as managing member of the
Current Equity Owners), representatives,
shareholders, partners, members, attorneys,
investment bankers, restructuring consultants

117a
and financial advisors in their capacities as
such (collectively, the “Exculpated Parties”),
shall have or incur any liability to any Person
for any act or omission in connection with,
relating to or arising out of the Chapter 11
cases, the formulation, negotiation, implementation, confirmation or consummation of
this Plan, the Disclosure Statement, or any
contract, instrument, release or other agreement or document entered into during the
Chapter 11 Cases or otherwise created in connection with this Plan; provided, however,
that nothing in this Section 8.4 shall be construed to release or exculpate any Exculpated
Party from willful misconduct or gross negligence as determined by a Final Order or any
breach of the Definitive Agreement or any
documents entered into in connection therewith.
The latter amendment to ¶ 8.4 was specifically highlighted in a redline version of the Third Amended Joint
Plan of Reorganization filed May 22, 2009, at docket
entry no. 945-1.
Blixseth first objected to confirmation of the Debtors’ Second Amended Joint Plan of Reorganization on
May 11, 2009, at docket entry no. 860. In that objection,
Blixseth joined the previously filed objections of Credit
Suisse and also objected on grounds the Debtors’ Second Amended Plan was not filed in good faith. Credit
Suisse subsequently resolved and withdrew its objections to confirmation, leaving Blixseth with his good
faith objection. However, on May 24, 2009, Blixseth

118a
filed a response to the Debtors’ post-confirmation hearing report arguing that ¶ 8.4 of the Debtors’ Plan was
unlawful and contrary to Ninth Circuit law:
The Court will recall the reason stated for
these exculpatory provisions – that threats
were made to Mr. Greenspan about legal action against to be taken against him and other
members of the Debtors’ professional team.
He testified that the threats were made by
Credit Suisse. Now after the Debtors having
settled with Credit Suisse and delivered mutual releases, the exculpatory language not
only remains in the Plan, but includes Credit
Suisse.
The Ninth Circuit prohibits such non-debtor
third party releases. Resorts International,
Inc. v. Lowenschuss (In re Lowenschuss), 67
F.3d 1394, 1401-2 (9th Cir. 1995) (“Lowenschuss”).
The Third Amended Plan is not confirmable
with these exculpatory provisions. The Ninth
Circuit in Lowenschuss stated that “this court
has repeatedly held, without exception, that
Section 524(e) [of the Bankruptcy Code] precludes bankruptcy courts from discharging
the liabilities of non-debtors.” Lowenschuss,
67 F.3d at 1401-2. In re American Hardwoods,
885 F.2d 621 (9th Cir. 1989); Underhill v.
Royal, 769 F.2d 1426 (9th Cir. 1985).
Blixseth’s response filed May 24, 2009, at docket entry
no. 956, p.12.
Contrary to Blixseth’s argument, the exculpation
clause, which was a “highly negotiated” component of

119a
the resolution between the Debtors, the Committee,
Credit Suisse and CrossHarbor, does not violate Ninth
Circuit precedent. The Ninth Circuit, in In re American
Hardwoods, Inc., 885 F.2d 621, 626 (9th Cir. 1989), and
Resorts Int’l, Inc. v. Lowenschuss (In re Lowenschuss),
67 F.3d 1394 (9th Cir. 1995), held that under § 524(e),
a bankruptcy court does not have the authority to permanently enjoin a creditor from continuing with and
enforcing a state court judgment against non-debtor
guarantors.4 The ruling articulated in American Hardwoods, as reiterated in Lowenschuss, is not implicated
here.
In American Hardwoods, a chapter 11 debtor
sought to permanently enjoin a creditor from enforcing
a state court judgment against the debtor’s guarantors,
who also happened to be the debtor’s president and
vice president. The Ninth Circuit held that the bankruptcy court lacked jurisdiction and power to permanently enjoin a creditor, beyond confirmation of the
plan, from enforcing a state court judgment against

4

In bankruptcy, a discharge is an involuntary release by operation of law of asserted and non-asserted claims by a creditor
against an entity who has filed a petition under the Bankruptcy
Code and who has abided by its rules. In re Arrowmill Development Corp., 211 B.R. 497, 504 (Bankr. D.N.J. 1997). Upon confirmation of a plan, a Chapter 11 debtor receives a discharge of its
debts which arose before confirmation. 11 U.S.C. § 1141(d)(1).
Subsection § 524(e) limits the scope of the discharge. A “discharge
of a debt of the debtor does not affect the liability of any other
entity on, or the property of any other entity, for such debt.” 11
U.S.C. § 524(e).

120a
the nondebtor guarantors. In reaching its decision, the
Ninth Circuit explained:
Section 105(a) provides that “[t]he court
may issue any order, process, or judgment that
is necessary or appropriate to carry out the
provisions of this title.” 11 U.S.C. § 105(a). Section 105 empowers the court to enjoin preliminarily a creditor from continuing an action or
enforcing a state court judgment against a
nondebtor prior to confirmation of a plan. In
re A.H. Robins Co., 828 F.2d 1023, 1026 (4th
Cir.1987), cert. denied, 485 U.S. 969, 108 S.Ct.
1246, 99 L.Ed.2d 444 (1988); A.H. Robins Co.
v. Piccinin, 788 F.2d 994, 1002-03 (4th Cir.)
(Piccinin), cert. denied, 479 U.S. 876, 107 S.Ct.
251, 93 L.Ed.2d 177 (1986). Furthermore, section 105 permits the court to issue both preliminary and permanent injunctions after
confirmation of a plan to protect the debtor
and the administration of the bankruptcy estate. See Burstein–Applebee, 63 B.R. at 102021 (principals of debtor permanently enjoined
from continuing state court action against
creditors’ committee); In re Askew, 61 B.R. 87,
89 (Bankr. S.D.Ohio 1986) (creditor permanently enjoined from continuing state court
action regarding discharged debt). American,
however, points to no case, and we are aware
of none, in which a court permanently enjoined, past confirmation of a plan, a creditor
from enforcing a state court judgment against
a nondebtor guarantor of a contract liability.
Deutsche argues, and the district court held,
that its power under section 105(a) to order

121a
the relief sought by American ends at confirmation of the plan.
American Hardwoods, 885 F.2d at 624-25. The analysis
in American Hardwoods focused on § 105 of the Bankruptcy Code, which the Court concluded “does not authorize relief inconsistent with more specific law.” Id.,
at 625, citing with approval In re Golden Plan of California, Inc., 829 F.2d 705, 713 (9th Cir.1986); and Johnson v. First National Bank of Montevideo, Minnesota,
719 F.2d 270, 273 (8th Cir.1983), cert. denied 465 U.S.
1012, 104 S.Ct. 1015, 79 L.Ed.2d 245 (1984). The Court
rejected the semantic distinction between a permanent
injunction and a discharge and viewed a permanent
injunction of actions against the debtor’s guarantors as
being contradictory to the specific provisions of
§ 524(e). The Court in American Hardwoods thus concluded the court had no power to issue the injunction
sought by the debtor:
As we succinctly explained in Underhill v. Royal,
769 F.2d 1426 (9th Cir.1985):
Generally, discharge of the principal debtor in bankruptcy will not
discharge the liabilities of codebtors
or guarantors. . . . [Section 524(e)] of
the 1978 Bankruptcy Reform Act was
a reenactment of Section 16 of the
1898 Act which provided that “[t]he
liability of a person who is a codebtor with, or guarantor or in any
manner a surety for, a bankrupt shall
not be altered by the discharge of

122a
such bankrupt.” Act of July 1, 1898,
ch. 541, § 16, 30 Stat. 550 (formerly
codified at 11 U.S.C. § 34 (1976)).
In addition, the Bankruptcy Act
of 1898, as amended, provided that
23 a corporation’s discharge in bankruptcy “shall not release its officers,
the members of its board of directors
or trustees or of other similar controlling bodies, or its stockholders or
members, as such, from any liability
under the laws of a State or of the
United States.” Act of June 22, 1938,
ch. 575, § 4(b), 52 Stat. 845 (formerly
codified at 11 U.S.C. § 22(b) (1976)).
Thus, under the old Act, stockholders
or directors could remain liable for
substantive violations despite discharge
of the corporate entity. 1A J. MOORE
COLLIER ON BANKRUPTCY 1116.14, at
1551 (14th ed. 1978).
Id. at 1432; see also id. (“The bankruptcy court
‘has no power to discharge the liabilities of a
bankrupt’s guarantor.’ ”), quoting Union Carbide Corp. v. Newboles, 686 F.2d 593, 595 (7th
Cir.1982); id. (“ ‘The bankruptcy court can affect only the relationships of debtors and creditor. It has no power to affect the obligations
of guarantors.’ ”), quoting R.I.D.C. Industrial
Development Fund v. Snyder, 539 F.2d 487,
490 n. 3 (5th Cir.1976), cert. denied, 429 U.S.
1095, 97 S.Ct. 1112, 51 L.Ed.2d 542 (1977).

123a
Section 524(e), therefore, limits the court’s equitable power under section 105 to order the
discharge of the liabilities of nondebtors[.]
Id. at 625-26. At that time, the Ninth Circuit reasoned,
in dicta, that adoption of the rationale discussed in in
Menard–Sanford v. Mabey (In re A.H. Robins Co.), 880
F.2d 694 (4th Cir.), cert. denied, 493 U.S. 959, 110 S.Ct.
376, 107 L.Ed.2d 362 (1989), would not dictate a different result because the facts in American Hardwoods
were distinguishable from the unusual facts found in
A.H. Robins. Id. at 626. In so stating, the Ninth Circuit
enumerated five factors which it considered critical to
the A.H. Robins holding:
(1) the reorganization plan, which included
the injunction, was approved by over 94% of
the claimants . . . , (2) the plan provided for
full payment of creditors’ claims, . . . ; (3) the
injunction affected only about 1.5% of the
claimants, . . . ; (4) it was “essential” to the
plan that claimants “either resort to the
source of funds for them in the Plan . . . or not
be permitted to interfere with the reorganization and thus with all other creditors, . . . ; and
(5) “the entire reorganization hing[ed] on the
debtor being free from indirect claims such as
suits against parties who would have indemnity or contribution claims against the
debtor.”
American Hardwoods, 885 F.2d at 626.
Six years later, in In re Lowenschuss, 67 F.3d 1394,
the Ninth Circuit again revisited the scope of § 524(e)

124a
and reiterated “that bankruptcy courts do not have the
equitable power under § 105(a) to discharge the liabilities of nondebtors through chapter 11 plan confirmation, contrary to the provisions of § 524(e). Id. at 140102. The Ninth Circuit clarified that in American Hardwoods, it “expressly declined to adopt the approach set
forth in In re A.H. Robins[.]”
This court is bound by, and does not dispute the
legal precedent established in Lowenschuss, American
Hardwoods, and Underhill, that liabilities of nondebtors cannot be discharged through a plan. Such legal
precedent, however, is inapplicable here because, unlike in Lowenschuss, American Hardwoods, and Underhill, ¶ 8.4 of the Debtors’ Third Amended Joint
Plan of Reorganization is not a broad sweeping provision that seeks to discharge or release nondebtors from
any and all claims that belong to others.
Blixseth’s counsel disputes that ¶ 8.4 contains
a temporal component.5 During direct examination,
Beckett described the temporal component of the exculpation clause as follows: “generally with respect
to the exculpation, it was negotiated carefully. And
the idea was not to overreach but to capture the time
period from the filing of the petition generally until
the consummation – confirmation of the plan.” The

5

Blixseth also argued in a Reply Brief filed July 5, 2011, that
“[a] s written, Section 8.4 releases the Exculpated Parties from
liability for pre and post-petition conduct which violates not only
Section 524(e) by also Mr. Blixseth’s due process rights.”

125a
temporal limitation of the exculpation clause was further discussed during Flynn’s questioning of Beckett:
FLYNN.

So please indicate to the Court
where the time limitation is in
the – that you were concerned
about.

BECKETT.

Yes. Docket No. 995, page 40 –
or it says, upper right, “48 of
58,” Section 8.4. About eight
lines down on the left is the
definition of “exculpated party.”
And so let’s just – “exculpated
parties.” Let’s just start with
that (quoted as recorded): “The
exculpated parties shall have
or incur – none of the exculpated parties shall have or incur any liability to any person
for any act or omission in connection with, relating to, or
arising out of the Chapter 11
cases.”
Now, let’s just stop right
there for a second. That doesn’t
give you any dates, okay, but
that’s the typical language which
is intended to define that we’re
not talking about anything that
happened a year before the
bankruptcy, we’re not even
talking about things probably
that happened two days before
the bankruptcy, and we’re not

126a
talking about stuff that happens after confirmation or consummation.
We’re talking about things
that arise and relate to the
Chapter 11 cases. Then continuing (quoted as recorded): “Or”
– I think is implied there –
“the formulation, negotiation,
implementation, confirmation,
or consummation of this plan,
the disclosure statement, or
any contract, instrument, release, or other agreement or
document entered into during
the Chapter 11 case or otherwise created in connection with
this plan.”
And my, my point is that
the doctrine of quasi-judicial
immunity really pertains to a
professional’s activities, you
know, during the pendency of
the bankruptcy case, and that’s
really the best way here that
lawyers have found over the
years to define that temporal
duration. So all I’m saying is
that we’re talking about what
happened during the case, and
that’s how we say it.
FLYNN.

In fact, there is no, as you put
it, “temporal” recitation in 8.4

127a
by date or time limit, is there,
Mr. Beckett?
BECKETT.

Yes, there is.

FLYNN.

No, other than this language
that you’ve stated –

BECKETT.

Other, other than –

FLYNN.

– there’s no recitation of a specific “60-day,” “90-day,” “from
the date of filing the petition
until the date of the confirmation of the plan.” There is no
such language, is there, sir?

BECKETT.

You know, I can’t change my
testimony. There is, but I understand, we’re arguing about
how that time period is defined. I’m saying it’s defined
there; you’re saying it’s not defined by dates and times or
specific duration. You’re right.

The Court agrees with Beckett’s observation that ¶ 8.4
only protects those acts that occurred in connection
with the Debtors’ Chapter 11 cases between November
10, 2008, and July 17, 2009. Acts falling outside the
foregoing dates are not protected.
The exculpation clause is also narrow in scope.
The following colloquy between Beckett and Flynn
highlights the limited scope of the exculpation clause:
FLYNN.

The term that’s used in 8.4,
“relating to” or “arising out of

128a
the Chapter 11 cases,” that’s a
very broad term, is it not, Mr.
Beckett?
UNIDENTIFIED SPEAKER: Objection; vague.
THE COURT: I’m going to overrule and allow
him to answer if he is able.
BECKETT.

You know, I think, I think it
comes from 28 U.S.C. § 1334(b),
is my recollection. And I think
that there are hundreds of
cases defining what “related
to,” “arising under,” or “in connection” – or not “in connection”; with – what that means.
I think it’s an exacting phrase.

Blixseth disagrees that the exculpation clause is
limited in scope, arguing ¶ 8.4 impermissibly releases
claims belonging to both the Debtors and Blixseth.
Blixseth’s belief that Debtors are seeking to impermissibly release claims belonging to the Debtors is evidenced by Blixseth’s motions for derivative standing
filed July 19 and 20, 2011, wherein Blixseth seeks
leave of this Court to pursue alleged claims belonging
to the Debtors against Credit Suisse and CrossHarbor.
Notwithstanding what claims ¶ 8.4 may or may not release, 11 U.S.C. § 1123(b)(3)(a) permits a plan to settle
or adjust any claim belonging to the debtor or to the
estate. Subsection 524(e) does not come into play with
respect to any claims belonging to the Debtors or the
bankruptcy estates that may have been released by
¶ 8.4 of the Plan against Credit Suisse or CrossHarbor.

129a
Blixseth’s counsel also elicited testimony at the
hearing held July 25th and 26th suggesting that ¶ 8.4
of the Debtors’ Plan impermissibly releases claims
Blixseth may have against certain of the parties, including CrossHarbor, Credit Suisse and Brown. After
Blixseth intervened in Adversary Proceeding 09-00014,
he steadfastly maintained that the Debtors’ bankruptcy filings were orchestrated by his ex-spouse,
Edra, and CrossHarbor. Blixseth likewise contends he
has claims against Credit Suisse stemming from a
2005 loan agreement between Blixseth, on behalf of
the Debtors, and Credit Suisse
Finally, Blixseth takes issue with the actions of
Brown, who admittedly served as counsel for both the
Debtors and Blixseth prior to November 10, 2008.
Brown is a partner in the law firm of Garlington, Lohn
& Robinson. Garlington, Lohn & Robinson was owed in
excess of $300,000 by the Debtors on their petition
date. Because of the substantial unsecured claim owed
Garlington, Lohn & Robinson, Brown agreed to and in
fact did serve as chairman of the Committee.
Blixseth contends Brown breached Blixseth’s
attorney-client privilege when Brown divulged information, protected by Blixseth’s attorney-client privilege, to the Committee. Blixseth complains that ¶ 8.4
of the Debtors’ Plan now exculpates Brown and that
Blixseth is foreclosed from pursuing a claim against
Brown for breach of Blixseth’s attorney-client privilege. Blixseth also takes issue with advice Brown
provided to Credit Suisse in 2005 with respect to the
Credit Suisse loan transaction and advice Brown

130a
provided to Blixseth prior to August 2008 in connection
with Blixseth’s marital settlement agreement.
While the Court cannot anticipate every claim
Blixseth may have against the parties involved in this
case, the specific claims discussed during testimony
are outside the scope of the release provision at issue.
The release provision in this case is narrow in both
scope and time, and applies only to an “act or omission
in connection with, relating to or arising out of the
Chapter 11 cases, the formulation, negotiation, implementation, confirmation or consummation of this Plan,
the Disclosure Statement, or any contract, instrument,
release or other agreement or document entered into
during the Chapter 11 Cases or otherwise created in
connection with this Plan[.]” For instance, any claim
Blixseth may have stemming from Brown’s advice with
respect to Blixseth’s marital settlement agreement or
the Credit Suisse loan transaction is clearly outside
the scope of the exculpation clause. Moreover, while not
specifically before the Court, this Court would find any
question as to whether Brown breached Blixseth’s attorney-client privilege as separate and distinct from
the Debtors’ confirmation process. The aforementioned
acts took place prior to the Debtors’ petition date and
have no connection whatsoever with the chapter 11
bankruptcy process.

131a
Larry Ream6, by way of background, explained
during his testimony that exculpation clauses are intended to “prevent parties – who are disappointed subsequent to the completion of a Chapter 11 case, from
suing professionals and others that are directly involved
in the process of reorganization. But they are limited,
and they are intended solely to preclude litigation related to or acts and conduct related to the process of
the reorganization itself ” Larry Ream explained specifically what was not covered by the exculpation
clause: “willful misconduct is not exculpated, nor are
gross – conduct that constitutes gross negligence, nor
is there anything within our exculpation clause . . .
that affects . . . 524(e) and the discharge provision.”
The parties in this case, including the Debtors,
Credit Suisse, CrossHarbor, Blixseth and others, all
had a lot at stake. According to Larry Ream, 101 of the
interested parties in this case had significant issues
and important positions, and they were all taken vigorously.” The vigorous jockeying by the parties created an oftentimes contentious environment. Attorney
Larry Ream referenced two pre-confirmation threats
made by Credit Suisse against various of the professionals involved in this case, wherein Credit Suisse alleged that the Debtors and their professional were
mismanaging this case and allowing value to dissipate.

6

Larry Ream was employed to represent the Debtors’ in this
bankruptcy case and was the person who drafted the Debtors’
plans.

132a
In another situation and prior to Blixseth’s active
involvement in either this case or any associated adversary proceeding, Beckett, who served as lead counsel for the Committee, sent Flynn a courtesy email to
advise Flynn and Blixseth that Blixseth was named in
a complaint the Committee had drafted, but not yet
filed. Flynn responded to Beckett by email on February
7, 2009: “I strongly urge you NOT to file a lawsuit that
will generate publicity that will potentially kill the
deal that Tim has put together to insure full payment
to the unsecured creditors comprised of the vendors,
workers, contractors.” Attached to Flynn’s email to
Beckett was correspondence between Blixseth and
Flynn in which Blixseth told Flynn if the UCC filed its
complaint and thereby killed Blixseth’s almost completed deal, Flynn was instructed to “commence legal
action against each and every person responsible, regardless of who they are.” As a result of Flynn’s email,
the Committee removed Blixseth’s name from the
Complaint, leaving Credit Suisse as the sole named
Defendant. However, Blixseth never proposed a deal to
provide full payment to the unsecured creditors and in
fact, subsequently requested leave to intervene in the
Debtors and Committee’s action against Credit Suisse.
That action evolved into an action between Blixseth
and the Liquidating Trustee. The Court eventually entered Judgment against Blixseth directing him to provide sufficient funds to pay the unsecured creditors.
As shown above, numerous parties were threatening others with lawsuits, and notwithstanding the exculpation clause, Blixseth, in 2009, filed a separate

133a
action against CrossHarbor in California. In addition,
prior to the July 25th hearing, Blixseth filed a complaint against: (1) Stephen Brown and his law firm,
Garlington, Lohn & Robinson, PLLP; (2) James A. Patten and his law firm Patten, Peterman, Bekkedahl &
Green, PLLC; (3) J. Thomas Beckett and his law firm
Parsons, Behle & Latimer; (4) Thomas L. Hutchinson
and his law firm Bullivant, Houser, Bailey, PC; (5) Samuel T. Byrne; and (6) CrossHarbor Capital Partners,
LLC. As the record demonstrates, litigation and the
threat of litigation is and was plentiful in this case.
An exculpation clause in this case was certainly
advisable given the litigious posture of the parties. The
only issue was who could legally be included in such a
clause. During cross-examination, counsel for Sumpter
specifically asked Beckett what “should an exculpation
clause be?” Beckett responded:
In my view, it should be at least as broad
as the quasi-judicial immunity. The quasijudicial immunity is there. It needs to be
reduced to writing. And it is almost in the nature – it’s a poor, poor reference – but it’s almost in the nature of an oath where the
purpose of it is to remind people of the paramount importance of repose in a bankruptcy
case.
Professionals and the people they represent in the cases – professionals, on behalf of
the people they represent in cases, battle each
other tirelessly for a period of time. And
things are said, and feelings are hurt, and
“oxes” are gored. And there needs to be repose

134a
at the end of the case. And the professionals,
and the debtor, and the committee members,
and the acquirer, the DIP lender, whoever else
is put in there by contract need to know at the
end of the case that everything about their behavior has been exposed, has been vetted, has
been considered, and it’s over.
The reorganized company – in this case,
the Yellowstone Club – and those of us who
participated in this case need to go back to doing what we like to do: Working on other cases,
selling lots and making people happy at the
club, and Credit Suisse is back in its business
of making loans. There needs to be that repose, and for me that’s the most important
thing, “This is the end of it, we’re done.”
Beckett continued by providing additional justification for inclusion of the exculpation clause in Debtors’
Third Amended Joint Plan of Reorganization:
Professionals ought to be able to do the best
they can in a bankruptcy case, get a result,
and then move on knowing that they’re not
subject to liability.
My own view has another component to
it, which is that, I agree, exculpation clause –
claim – clauses are very common, and their
function is like a stoplight at the end of a long
straightaway. And it’s really important when
a plan is filed that it have an exculpation
clause in it because if the plan isn’t confirmed,
the exculpation clause is not yet in effect,
but you have a long period of time before –

135a
reasonably, a reasonable period of time before
the plan is confirmed for people to think about
the effect of the exculpation clause. And that
exercise about thinking of the effect of the exculpation clause causes everybody to say, “Do
I have some claim to bring?”
Because this Court, when this Court
gives professionals like us authority to do
things, it is this Court that should review the
proprietary of what we have done. And the existence of a pending exculpation clause has
the function, the very important function of
causing everyone to bring up everything they
have to bring up before the case is confirmed,
before the plan is confirmed and the exculpation clause is in effect. And so everyone brings
up all the complaints they have about each
other before that in this court and resolve
them all. And then with that, then you have
that repose, and professionals can go about
their next case without being sued.
*

*

*

I think it’s also true that there is a doctrine of
quasi-judicial immunity which is parallel to
the exculpation clause. I don’t know the intersection of those two.
This Court agrees that the exculpation clause in this
case does nothing more than provide quasi-judicial immunity to the Debtors, the Committee and their professionals.

136a
Beckett also explained why it was necessary to include Credit Suisse and CrossHarbor:
Every party was doing something very
important and giving up something very important and making very important agreements to undertake going forward. And it was,
it was very clear that every single party there
had a deal point that they were to be within
the exculpation clause of whatever plan came
out of the term sheet.
It was, it was a deal point, and it was a
reasonable deal point, and – absolutely. CrossHarbor was acquiring the reorganized debtor,
the plan assets. CrossHarbor was paying up
to $15 million for unsecured creditor claims.
Credit Suisse was standing down on its appeal, which would have destroyed the plan –
or there would be no plan if Credit Suisse appealed. Credit Suisse was getting something
in return.
The Court agrees that CrossHarbor should be included in the exculpation clause because of its involvement in this case by providing debtor in possession
financing and because it served as the stalking horse
bidder. Credit Suisse is also an expected candidate for
coverage because it was, coming into this case, by far
the largest creditor with a claim of $375 million. Credit
Suisse was also seeking to appeal a partial and interim
order entered by this Court on May 12, 2009. Credit
Suisse had the ability to single-handedly disrupt the
entire confirmation process.

137a
In support of his position, Blixseth’s counsel invited the Court to review In re Lighthouse Lodge, LLC,
(slip opinion) 2010 WL 4053984 (Bankr. N.D.Cal. 2010),
for “a very good analysis of just how limited these exculpation clauses need to be.” Lighthouse Lodge provides support for approval of the instant exculpation
clause. In Lighthouse Lodge, the court endorsed a bifurcated approach to examining release clauses contained in chapter 11 plans. Id. *8. According to the
court in Lighthouse Lodge, the first prong of the analysis treats the release as “a settlement or adjustment
of claims belonging to the debtor and the estate within
the meaning of § 1123(b)(3)(A)” and examined such
settlement or adjustment of claims under the factors
articulated in A & C Properties, 784 F.2d 1377 (9th Cir.
1986). Id., quoting Edgewood Centre v. Flash Island,
Inc. (In re Whispering Pines Estates, Inc.), 370 B.R. 452
(1st Cir. BAP 2007). The second part of the analysis
looks at the release as n a release (or limitation of liability, or grant of immunity) of a party responsible for
implementing the plan.’ ” Id. In reaching its decision to
endorse the bifurcated approach, the court in Lighthouse Lodge explained,
Section 1103(c) grants to official creditors’
committees broad authority in formulating a
plan of reorganization and performing “such
other services as are in the interest of those
represented.” 11 U.S.C. § 1103(c). Section 1103(c)
also gives rise to “an implicit grant of limited
immunity.” In re Drexel Burnham Lambert Group,
Inc., 138 B.R. 717, 722 (Bankr. S.D.N.Y.1992).
Hence, a plan may contain a release provision

138a
insulating a committee and its members from
liability except from gross negligence or willful misconduct. See Vasconi & Associates,
Inc. v. Credit Manager Association of California, 1997 WL 383170, *4 (N.D.Cal.1997);
In re PWS Holding Corp., 228 F.3d 224, 24647 (3rd Cir. 2000);
This release of liability except from gross
negligence or willful misconduct has been extended to plan proponents other than a committee. In In re WCI Cable, Inc., 282 B.R. 457
(Bankr. D.Or. 2002), the bankruptcy court was
confronted with objections to the various release, exculpation, injunction and indemnification provisions in the debtor’s plan. One of
the exculpation provisions sought to limit the
liability of the debtors, who were the plan proponents, “for any of their actions or omissions
to act with respect to the [debtors’] bankruptcy proceedings, except for willful misconduct or gross negligence.” Id., at 477. Because
the provision would release the debtors and
their officers, members, directors, employees,
representatives, attorneys, accountants, financial advisors, agents, among others, the bankruptcy court observed that “[d]ifferent liability
standards may be appropriate and/or applicable under the Bankruptcy Code to these different entities and individuals in various
circumstances in performing their respective
functions postpetition in bankruptcy, and the
lines separating actions protected by immunity from actionable conduct are neither clearly
nor easily drawn.” Id., at 478. The court also
pointed out that unlike a creditors’ committee,

139a
these parties did not have statutory immunity. Id., at 478. Nevertheless, noting that the
debtors had a legitimate concern because the
cases were bitterly contested, the court approved the exculpation clause on the condition
that the exculpation exceptions were extended
to cover negligence and breaches of fiduciary
duty, in addition to gross negligence and willful misconduct as already stated in the release. Id., at 479-80.
Other courts have approved exculpation
provisions that limited liability to gross negligence, willful misconduct, or breach of fiduciary duty. See In re PWS Holding Corp., supra
(approved exculpation provision releasing
debtors, reorganized debtors, committee, and
their officers, directors, employees, advisors,
professionals or agents from liability except
from willful misconduct or gross negligence);
In re Western Asbestos Co., 313 B.R. 832, 84647 (Bankr. N.D.Cal. 2003) (approved release
provision in favor of debtors, committee, futures
representative, and their respective agents
except for willful misconduct); In re Firstline
Corp., 2007 WL 269086 (Bankr. M.D.Ga. 2007)
(approved exculpation clause for the debtor,
trustee, the committee and its members, and
their respective advisors, attorneys, consultants or professionals with exception for gross
negligence, willful misconduct, or breach of fiduciary duty); In re Enron Corp., 326 B.R. 497
(S.D.N.Y. 2005) (bankruptcy court approved
exculpation provision in favor of debtors, creditors’ committee, employee committee, trustees, and their respective officers, employees,

140a
attorneys, and agents that excluded gross
negligence or willful misconduct).
Id. at *7. The court went on to approve a release provision, provided it was amended to add exceptions to
cover gross negligence or willful misconduct. Id. at *9.
Applying that Lighthouse Lodge analysis to the
facts of this case, this Court finds, for the reasons discussed earlier, that any release of claims by the Debtors was, and remains, fair and equitable and indeed,
permissible under 11 U.S.C. § 1123(b)(3)(A). As for release of liability, the Court finds that the specific facts
of this case compel approval of the exculpation clause
as drafted and originally approved in the Third
Amended Joint Plan of Reorganization. The Debtors,
Committee, Credit Suisse and CrossHarbor were all
major stakeholders in this case and each party was vigorously negotiating issues they deemed signification
and positions important to the respective parties. The
Plan in this case was originally proposed almost exclusively by the Debtors. However, during the countless
hours of negotiations between 5:00 p.m. on Friday, May
15, 2009, and 9:00 a.m. on Monday, May 18, 2009, it is
clear that the Third Amended Joint Plan of Reorganization and the incorporated Settlement Term Sheet
became a collaborative effort of the Debtors, Committee, Credit Suisse and CrossHarbor, who all became,
in essence, plan proponents. Because the Settlement
Term Sheet and exculpation clause were the cornerstones of the Plan and were highly negotiated, the
ruling in Lighthouse Lodge would suggest that the
plan proponents, namely the Debtors, the Committee,

141a
CrossHarbor and Credit Suisse, should be released
pursuant to ¶ 8.4 of the Plan.
Unlike the exculpation clauses in American Hardwoods and Lowenschuss, the exculpation clause in the
Debtors’ confirmed Third Amended Joint Plan of Reorganization does not implicate 11 U.S.C. § 524(e). The
exculpation clause in the case sub judice is not barred
by Ninth Circuit Law. The exculpation clause is temporal in nature and covers those parties who were
closely involved with drafting the Settlement Term
Sheet, which became the cornerstone of the Debtors’
Third Amended Joint Plan of Reorganization. As the
testimony clearly shows, without the Settlement Term
Sheet, it is doubtful the Debtors could have achieved
confirmation of a Chapter 11 plan, and indeed it is very
likely the Debtors’ bankruptcies would have been converted to Chapter 7 and the assets liquidated.
Given the foregoing discussion, this Court need
not correct an existing judgment or enter a new ruling
and the Debtors need not start the confirmation process anew. The Court adopts in total and ratifies its
earlier ruling on approval of the Settlement Term
Sheet. The Rule 9019 Motion is technically irrelevant
and unnecessary. The matter came before the Court,
irrespective of the Rule 9019 Motion, as a result of
Judge Haddon’s ruling and to the extent feasible, this
Court has defined the scope of the exculpation clause
and the parties covered thereby.

142a
III. Blixseth’s pending Motion for Relief
From Order Confirming Third Amended
Plan of Reorganization.
Also pending is Blixseth’s Motion for Relief From
Order Confirming Third Amended Plan of Reorganization filed at docket entry no. 2054, together with the
objections by the Liquidating Trustee at docket entry
no. 2164, the Debtors, CrossHarbor and New CH YMC
acquisition, LLC at docket entry no. 2184 and the Ad
Hoc Group of Class B Unit Holders at docket entry no.
2191. Blixseth subsequently filed a related Motion to
Strike YCLT’s Opposition to Motion for Relief From Order Confirming Third Amended Plan of Reorganization
on June 10, 2011, at docket entry no. 2167.
In the motion for relief, Blixseth requests that the
Court void in its entirety and nunc pro tunc all downstream effects of the Debtors’ Third Amended Joint
Plan of Reorganization. Blixseth argues that such request is proper because the “Plan has now been reversed by the U.S. District Court for multiple ‘plain
errors’ including the denial of Mr. Blixseth’s fundamental due process rights.” For the reasons discussed
earlier in this Memorandum of Decision, the Court denies Blixseth’s Motion for Relief From Order Confirming Third Amended Plan of Reorganization. Blixseth’s
motion to strike is similarly denied.
The Court would note that in a supplemental brief
filed August 8, 2011, at docket entry no. 2295, Blixseth
relies solely on Stern v. Marshall, 131 S. Ct. 2594, 2608,
2615, 2620 (2011) and In re BearingPoint, 453 B.R. 486,

143a
in support his request for relief from the Order confirming the Debtor’s Third Amended Joint Plan of Reorganization. More to the point, Blixseth contends this
Court lacks the constitutional authority to approve
the Debtors’ plan because “the Exculpation Clause approved by order of this Court acted as a final order dismissing all common law causes of action against the
Exculpated Parties.” For reasons discussed below, the
Court finds it has authority to enter binding decisions
with respect to confirmation of a chapter 11 plan.
IV. Subject matter jurisdiction.
As just mentioned, Blixseth argues this Court
lacks subject matter jurisdiction to hear the matters
set on July 25 and 26, 2011, based upon the United
States Supreme Court’s recent ruling in Stern v. Marshall, 131 S.Ct. 2594. The “jurisdiction of the bankruptcy courts, like that of other federal courts, is
grounded in, and limited by, statute.” Battleground
Plaza, LLC v. Ray (In re Ray), 624 F.3d 1124, 1130 (9th
Cir. 2010) (quoting Celotex Corp. v. Edwards, 514 U.S.
300, 307 (1995)). A bankruptcy court’s jurisdiction is,
generally, prescribed by 28 U.S.C. § 1334(b). In addition to granting jurisdiction to bankruptcy courts over
bankruptcy cases, the statute provides that “the district courts [and by reference pursuant to 28 U.S.C.
§ 157, the bankruptcy courts] shall have original but
not exclusive jurisdiction of all civil proceedings arising under title 11, or arising in or related to cases under title 11.”

144a
In recent years, various courts of appeal have articulated the limits on bankruptcy court jurisdiction
over matters arising after confirmation of a debtor’s reorganization plan. See, e.g., In re Resorts Int’l, Inc., 372
F.3d 154, 166-67 (3d Cir. 2004) (“the essential inquiry
appears to be whether there is a close nexus to the
bankruptcy plan or proceeding sufficient to uphold
bankruptcy court jurisdiction over the matter”); Bank
of La. v. Craigs Stores of Tex., Inc., 266 F.3d 388, 39091 (5th Cir. 2001) (post-confirmation bankruptcy jurisdiction limited to matters pertaining to implementation or execution of the plan). The Ninth Circuit has
adopted the “close nexus” test of Resorts Intl for measuring post-confirmation related to bankruptcy court
jurisdiction. In re Pegasus Gold Corp., 394 F.3d 1189,
1194 (9th Cir. 2005) (reasoning that while this test
“recognizes the limited nature of post-confirmation
jurisdiction, [it] retains a certain flexibility. . . .”). In
Resorts Int’l, the Third Circuit considered what it perceived to be problems in its existing precedent, Pacor
v. Higgins, 743 F.2d 984 (3d Cir. 1984). In Pacor, the
court had held that “the test for determining whether
a civil proceeding is related to bankruptcy is whether
the outcome of that proceeding could conceivably have
any effect on the estate being administered in bankruptcy.” Id. at 994. The Pacor test, however, proved less
than useful in determining related to jurisdiction after
confirmation of a plan because the bankruptcy estate
no longer exists. In Resorts Int’l, the court shifted the
emphasis to whether “there is a close nexus to the
bankruptcy plan or proceeding sufficient to uphold bankruptcy court jurisdiction over the matter.” Id. Although

145a
the Third Circuit never precisely defined what it
meant by “close nexus,” it cited numerous case examples of a nexus that would support jurisdiction. In re
Resorts Int’l, Inc., 372 F.3d at 161, citing Donaldson v.
Bernstein, 104 F.3d 547, 552 (3d Cir. 1997) (post-confirmation proceeding concerning the reorganized debtor’s
failure to pay unsecured creditors according to terms
in the plan); U.S. Tr. v. Gryphon at the Stone Mansion,
216 B.R. 764 (W.D. Pa. 1996), aff ’d 166 F.3d 552 (3d Cir.
1999) (dispute interpreting attorney fee provision in
the plan); Bergstrom v. Dalkon Shield Claimants Trust
(In re A.H. Robins Co.), 86 F.3d 364, 372-73 (4th Cir.
1996) (dispute over calculation of attorney fees that
could affect treatment of remaining claims under the
plan)). However, the import of the Resorts Int’l analysis
is even more revealing by its citation of example cases
where the facts did not establish a sufficiently close
nexus to support bankruptcy jurisdiction. In re Resorts
Int’l, Inc., 372 F.3d at 168 citing Falise v. Am. Tobacco
Co., 241 B.R. 48, 52 (E.D.N.Y. 1999) (dispute between a
plan liquidating trust and tobacco manufacturers
would have “no impact on any integral aspect of the
bankruptcy plan or proceeding”); Grimes v. Graue (In
re Haws), 158 B.R. 965, 970 (Bankr. S.D. Tex. 1993) (in
an action by trustee against partner of the debtor, trustee failed to prove how any damages received from the
defendant were “necessary to effectuate the terms of
the plan.”)). In short, under Resorts Int’l, as a condition
for bankruptcy court post-confirmation jurisdiction,
the outcome of a dispute must produce some effect on
the reorganized debtor or a confirmed plan. Indeed, immediately following its review of this case law, the

146a
Third Circuit concluded “where there is a close nexus
to the bankruptcy plan or proceeding, as when a matter affects the interpretation, implementation, consummation, execution, or administration of a confirmed
plan or incorporated litigation trust agreement, retention of post-confirmation bankruptcy court jurisdiction
is normally appropriate.” Id. at 168.
The Ninth Circuit most recently visited related to
jurisdiction after confirmation in a chapter 11 case in
In re Ray, 624 F.3d at 1124. In Ray, the bankruptcy
court had approved the sale of a parcel of property
owned by the debtor and his nondebtor co-owner, free
and clear of the first refusal rights previously granted
by them to Battle Ground Plaza, LLC. After the
debtor’s plan was confirmed and the bankruptcy case
was closed, Battle Ground Plaza sued the reorganized
debtor, the nondebtor co-owner, the purchaser, and the
purchaser’s successor in state court for breach of its
contractual right of first refusal. Because the sale was
originally authorized under a bankruptcy court order,
the state court, in its words, “remanded” the action to
the bankruptcy court, and stayed proceedings in state
court pending the bankruptcy court’s determination
whether it retained jurisdiction over the transaction
and dispute. In re Ray, 624 F.3d at 1129. The bankruptcy court assumed jurisdiction and proceeded to
construe the sale order and resolve the parties’ claims.
When the dispute finally reached the Ninth Circuit, the court decided that the bankruptcy court
lacked jurisdiction to decide a dispute between two
nondebtors over the meaning of the bankruptcy court’s

147a
sale order entered in a since-closed chapter 11 bankruptcy case. Applying Valdez Fisheries, the court concluded that, because the claims were all based upon
Washington law, could exist entirely apart from the
bankruptcy proceeding, and could not impact the
closed bankruptcy case, the state court, not the bankruptcy court, should construe the sale order and adjudicate the parties’ rights. Id. at 1134-35.
This Court distills an important lesson from these
decisions for application of the close nexus test as developed in Resorts Int’l, and as adopted and refined by
the Ninth Circuit. In particular, to support jurisdiction,
there must be a close nexus connecting a proposed
post-confirmation proceeding in the bankruptcy court
with some demonstrable effect on the debtor or the
plan of reorganization. Applying the Ninth Circuit case
law to the facts of this case, it is clear that consideration
of the Settlement Term Sheet and defining the scope of
the exculpation clause in the Debtors’ Third Amended
Joint Plan or Reorganization directly impact the Debtors, the bankruptcy estates and implementation of the
Debtors’ Third Amended Joint Plan of Reorganization.
This Court’s retention of jurisdiction in this instance is
appropriate, notwithstanding the decision in Stern v.
Marshall. Therefore, Blixseth’s standing objection to
this Court’s subject matter jurisdiction is overruled.
For the reasons discussed above, the Court will enter a separate order providing as follows:
IT IS ORDERED that Blixseth’s Request for Judicial Notice filed July 22, 2011, at docket entry no. 2268
is granted.

148a
IT IS FURTHER ORDERED that the Court adopts
and ratifies its Memorandum of Decision and Order
entered June 2, 2009, approving the Settlement Term
Sheet and confirming the Debtors’ Third Amended
Joint Plan of Reorganization.
IT IS FURTHER ORDERED that Blixseth’s Motion for Relief From Order Confirming Third Amended
Plan of Reorganization filed at docket entry no. 2054,
is denied.
IT IS FURTHER ORDERED that Blixseth’s Motion to Strike YCLT’s Opposition to Motion for Relief
From Order Confirming Third Amended Plan of Reorganization Filed at Docket No. 2164 filed June 10,
2011, at docket entry no. 2167, is denied.
IT IS FURTHER ORDERED the Joint Motion for
Order Pursuant to Bankruptcy Rule 9019 Authorizing
and Approving the Yellowstone Club Settlement Term
Sheet Nunc Pro Tunc filed by the Debtors, CrossHarbor Capital Partners, LLC and New CH YMC Acquisition, LLC on June 10, 2011, at docket entry no. 2165 is
denied as moot.
BY THE COURT
/s/ Ralph B. Kirscher
HON. RALPH B. KIRSCHER
U.S. Bankruptcy Judge
United States
Bankruptcy Court
District of Montana

149a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
TIMOTHY L. BLIXSETH,
Appellant,
vs.
YELLOWSTONE MOUNTAIN CLUB, LLC et al.,

No. CV-11-65-BU-SEH
ORDER
On appeal from
Bankruptcy
Case No. 08-61570-11

Appellees,
Upon the record made in open court on January
27, 2012,
ORDERED:
Appellees’ Joint Motion to Dismiss Appeal on
Grounds of Equitable Mootness1 is DENIED.
DATED this 27th day of January, 2012.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

1

Document No. 42

150a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
TIMOTHY L. BLIXSETH,
Appellant,
vs.

No. CV-11-65-BU-SEH
MEMORANDUM
AND ORDER

YELLOWSTONE MOUNOn appeal from
TAIN CLUB, LLC, YELLOW- Bankruptcy
STONE DEVELOPMENT,
Case No. 08-61570-11
LLC, BIG SKY RIDGE, LLC,
YELLOWSTONE CLUB
CONSTRUCTION CO., LLC,
Appellees,
INTRODUCTION
Appellant, Timothy L. Blixseth (Blixseth), has appealed from the September 30, 2011, Order of the
United States Bankruptcy Court for the District of
Montana, adopting and ratifying its Memorandum of
Decision and Order of June 2, 2009, which confirmed
Debtors’ Third Amended Plan of Reorganization. This
Court has jurisdiction under 28 U.S.C. § 158(a).
BACKGROUND
Blixseth was one of the principal founders of
Yellowstone Mountain Club, LLC. In November 2008,
Yellowstone Mountain Club, LLC, Yellowstone Development, LLC, Big Sky Ridge, LLC, and Yellowstone

151a
Club Construction Company, LLC (collectively Debtors)
filed for Chapter 11 bankruptcy protection.1 Debtors’
submitted a Third Amended Plan of Reorganization on
May 22, 2009. It was confirmed by the Bankruptcy
Court on June 2, 2009.
An unsecured claim in favor of Blixseth for
$26,000 was listed in Amended Schedule F to the
Amended Voluntary Petition of Debtor Yellowstone
Mountain Club, LLC.2 This scheduled claim was superseded by Blixseth’s filing of Proof of Claim No. 714 in
the amount of $250,000 for a lifetime club membership.3 On September 14, 2010, Blixseth and others filed
an “Agreed Motion to Allow Withdrawal of Proofs of
Claim.”4 The Bankruptcy Court granted the motion on
September 15, 2010,5 ending Blixseth’s standing as a
creditor in the proceedings.

1

Bankruptcy Case 08-61570-11.
See Bankruptcy Case 08-61570-11, Document 407-6 at 32.
The basis for this claim was described by the Trustee as “unknown” as the Trustee lacked sufficient information to evaluate
whether the scheduled claim represented a legitimate claim
against Debtor’s bankruptcy estate. See Bankruptcy Case 0861570-11, Document 1432 at 2.
3
The Bankruptcy Court’s Claims Register in Bankruptcy
Case 08-61570-11 reflects that Blixseth filed Proof of Claim No.
714 on March 18, 2009.
4
See Bankruptcy Case 08-61570-11, Document 1952.
5
See Bankruptcy Case 08-61570-11, Document 1956.
2

152a
DISCUSSION
This appeal asserts numerous challenges to the
actions and decisions of the Bankruptcy Court in reapproving Debtors’ Third Amended Plan of Reorganization on September 30, 2011, following remand.6 Extensive briefs and record excerpts have been submitted
by the parties. On October 18, 2012, the Court conducted a joint hearing in this appeal and the appeal in
Cause 11-66-BU-SEH. The Court heard approximately
31/2 hours of oral argument. However, none of the issues presented are appropriate for resolution as Blixseth lacks standing to assert them on appeal.
Standing to appeal a decision of a Bankruptcy
Court is to be distinguished from standing to appear
and participate in proceedings before the Bankruptcy
Court. See Motor Vehicle Casualty Co. v. Thorpe Insulation Co._(In re Thorpe Insulation Co.), 677 F.3d 869,
883-84 (9th Cir. 2012). A party has standing to contest
a Bankruptcy Court order on appeal only if he can
show that the order being appealed has a present, direct and adverse affect on his pecuniary interests. Id.;
6

The appeal issues as stated by Blixseth are:
1. Was it reversible error for the bankruptcy court to
confirm the Plan containing identical exculpatory
clauses that this Court previously held violated Ninth
Circuit law?
2. Was it reversible error for the bankruptcy court to approve the Settlement Term Sheet without a proper
Rule 9019 Motion before it and without applying the
A &C Properties factors to the present circumstances?
3. Did the bankruptcy court err in denying Blixseth’s
Rule 60(b) Motion?

153a
Duckor Spradling & Metzger v. Baum Trust (In re
P.R.T.C.. Inc.), 177 F.3d 774, 777 (9th Cir. 1999);
Fondiller v. Robertson, 707 F.2d 441, 443 (9th Cir.
1983); In re Combustion Engineering, Inc., 391 F.3d
190, 214-17 (3rd Cir. 2005). Future, contingent or potential adverse pecuniary developments do not suffice.
Fondmiller, 707 F.2d at 443; In re Combustion Engineering, Inc., 391 F.3d at 215.
Blixseth, having withdrawn his claims, is no
longer a creditor. He has no standing as such to challenge the Bankruptcy Court’s re-confirmation of the
Third Amended Plan of Reorganization as the Plan has
no direct and immediate impact on his property or his
rights. The Plan’s exculpation clause language neither
creates nor imposes any liability on him. He is beyond
the ambit of its reach and application. Similarly, Blixseth can claim no immediate adverse effect upon his
property or his pecuniary interests by reason of any
compliance or non-compliance with Bankruptcy Rule
9019 in the approval of the Settlement Term Sheet as
he is not a creditor.
Consideration of any issue related to the motion
denominated “Motion for Relief from Order Confirming
Third Amended Plan of Reorganization” filed November 30, 2010, and characterized in Blixseth’s brief as a
Rule 60(b) motion is, by definition, dependent upon
standing to claim capacity to assert the issue in the
first instance. That standing is absent. Neither how the
Bankruptcy Court addressed the matters asserted in
the motion, nor how it resolved them, resulted in a present adverse affect on Blixseth’s pecuniary interests.

154a
CONCLUSION
Blixseth lacks standing to challenge the Bankruptcy Court’s Memorandum of Decision and Order of
September 30, 2011.
ORDER
This appeal is DISMISSED.
DATED this 6th day of March, 2013.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

155a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TIMOTHY L. BLIXSETH,
Appellant,
v.

No. 13-35190
D.C. No.
2:11-cv-00065-SEH

YELLOWSTONE MOUNTAIN MEMORANDUM*
CLUB, LLC; YELLOWSTONE
CLUB CONSTRUCTION COMPANY, LLC; YELLOWSTONE
DEVELOPMENT, LLC,
Debtors - Appellees,
BRIAN A. GLASSER, Esquire,
Trustee of Yellowstone Club
Liquidating Trust,
Appellee,
BLUE SKY RIDGE, LLC,
Debtor - Appellee,
CROSS HARBOR CAPITAL
PARTNERS, LLC; CREDIT
SUISSE,
Appellees.

* This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

156a
YELLOWSTONE MOUNTAIN No. 13-35245
CLUB, LLC; YELLOWSTONE D.C. No.
CLUB CONSTRUCTION COM- 2:11-cv-00065-SEH
PANY, LLC; YELLOWSTONE
DEVELOPMENT, LLC,
Debtors - Appellants,
BRIAN A. GLASSER, Esquire,
Trustee of Yellowstone Club
Liquidating Trust,
Appellant,
BLUE SKY RIDGE, LLC,
Debtor - Appellant,
CROSS HARBOR CAPITAL
PARTNERS, LLC,
Appellant,
v.
TIMOTHY L. BLIXSETH,
Appellee.
Appeal from the United States District Court
for the District of Montana
Sam E. Haddon, District Judge, Presiding
Argued and Submitted August 4, 2014
Pasadena, California
Before: KOZINSKI, PAEZ, and BERZON, Circuit
Judges.
Appellant Timothy L. Blixseth (“Blixseth”) appeals the district court’s order dismissing, for lack of

157a
appellate standing, his appeal from the bankruptcy
court’s order confirming the Third Amended Plan of
Reorganization (“the Plan”). In a cross-appeal, Yellowstone Mountain Club, LLC, et al. (“the Debtors”) argue
that the district court erred in denying their motion
to dismiss Blixseth’s appeal on grounds of equitable
mootness. We reverse in part, affirm in part, and remand.
(1) To have standing to appeal an order of the
bankruptcy court, an appellant must show he is a “person aggrieved" – that is, that he is “directly and adversely affected by the order of the bankruptcy court –
that it diminish the appellant’s property, increase its
burdens, or detrimentally affect its rights.” Motor Vehicle Casualty Co. v. Thorpe Insulation Co. (In re Thorpe
Insulation Co.), 677 F.3d 869, 884 (9th Cir. 2012). One
need not be a creditor of the estate to be a person
aggrieved. See, e.g., Fondiller v. Robertson (In re
Fondiller), 707 F.2d 441, 442 (9th Cir. 1983).
The exculpation clause strips Blixseth of identifiable, affirmative legal claims, which are property.
Called “choses in action” at common law, they have potential economic value. See C.I.R. v. Banks, 543 U.S.
426, 435-36 (2005); Phillips Petroleum Co. v. Shutts,
472 U.S. 797, 807 (1985); United States v. Stonehill, 83
F.3d 1156, 1159 (9th Cir. 1996). Blixseth is therefore
directly and adversely affected pecuniarily by the order confirming the Plan and so has standing to appeal
it. See In re Thorpe, 677 F.3d at 884. Accordingly, we
REVERSE the district court’s order dismissing Blixseth’s appeal for lack of standing.

158a
(2) Equitable “[m]ootness is a jurisdictional issue
which [this Court] review[s] de novo.” Baker & Drake,
Inc. v. Pub. Serv. Comm’n of Nev. (In re Baker & Drake,
Inc.), 35 F.3d 1348, 1351 (9th Cir. 1994). Considerations
in determining whether an appeal of an order confirming a reorganization plan is equitably moot include:
whether the party seeking relief has diligently sought
a stay; whether the plan has been substantially consummated; and whether the rights of third parties
have intervened. In re Thorpe, 677 F.3d at 880. Of particular relevance is “whether the bankruptcy court can
[still] fashion effective and equitable relief without
completely knocking the props out from under the plan
and thereby creating an uncontrollable situation for
the bankruptcy court.” Id.; see also Spirtos v. Moreno
(In re Spirtos), 992 F.2d 1004, 1006 (9th Cir. 1993).
Blixseth did not seek a stay in this Court, and the
Plan has been substantially consummated. Whether
Blixseth’s appeal as to the propriety of the exculpation
clause is equitably moot thus depends on whether the
bankruptcy court can still fashion effective and equitable relief short of vacating the Plan, an inquiry the district court did not undertake in denying the Debtors’
motion to dismiss Blixseth’s appeal as equitably moot.
We hold Blixseth’s appeal as to the exculpation
clause is not equitably moot, because it is apparent
that one or more remedies is still available. See In re
Thorpe, 677 F.3d at 880.
We therefore AFFIRM, albeit on different grounds,
the district court’s conclusion that Blixseth’s challenge

159a
to the exculpation clause is not equitably moot. We REMAND with instructions to consider Blixseth’s challenges to the exculpation clause in the first instance.
(3) As to Blixseth’s arguments that the bankruptcy court erred in approving the Settlement Term
Sheet and in denying Blixseth’s Rule 60(b) motion for
relief from the Confirmation Order and that Blixseth
is therefore entitled to be restored to the “status quo
ante,” his appeal is equitably moot. The relief Blixseth
seeks as to these issues would require unraveling the
Plan entirely. Because the Plan has been substantially
consummated, it is not now possible to give Blixseth
the broad remedies he seeks “without knocking the
props out from under the Plan.” See In re Thorpe, 677
F.3d at 880. His appeal as to these issues is therefore
equitably moot.
The parties shall bear their own costs on appeal.
AFFIRMED in part; REVERSED and REMANDED in part.

160a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
BUTTE DIVISION
TIMOTHY L. BLIXSETH,
Appellant,
vs.

No. CV-11-65-BU-SEH
MEMORANDUM
AND ORDER

YELLOWSTONE MOUNOn appeal from
TAIN CLUB, LLC, YELLOW- Bankruptcy
STONE DEVELOPMENT,
Case No. 08-61570-11
LLC, BIG SKY RIDGE, LLC,
YELLOWSTONE CLUB
CONSTRUCTION CO., LLC,
Appellees,
This matter is before the Court on remand following the Circuit’s determination that Blixseth’s appeal
as to the exculpation clause of the Third Amended Plan
of Reorganization (“the Plan”) was not equitably moot.
Instruction to this Court “to consider Blixseth’s challenges to the exculpation clause in the first instance”1
was provided. Those challenges have been fully considered and, for the stated reasons which follow, have
been resolved.
Whether and when equitable mootness may be
invoked to preclude review of an order confirming a

1

Doc. 134 at 5.

161a
reorganization plan was directly addressed in the Circuit’s memorandum of May 1, 2015:
Equitable “mootness is a jurisdictional issue which [this Court] review[s] de novo.
Baker & Drake, Inc. v. Pub. Serv. Comm’n of
Nev. (In re Baker & Drake, Inc.), 35 F.3d 1348,
1351 (9th Cir. 1994). Considerations in determining whether an appeal of an order confirming a reorganization plan is equitably
moot include: whether the party seeking relief
has diligently sought a stay; whether the plan
has been substantially consummated; and
whether the rights of third parties have intervened. In re Thorpe, 677 F.3d at 880. Of particular relevance is “whether the bankruptcy
court can [still] fashion effective and equitable
relief without completely knocking the props
out from under the plan and thereby creating
an uncontrollable situation for the bankruptcy court.” Id.; see also Spirtos v. Moreno
(In re Spirtos), 992 F.2d 1004, 1006 (9th Cir.
1993).2
The Circuit’s memorandum addresses and resolves two of the three significant considerations of
equitable mootness contrary to the position asserted
by Blixseth: (1) “whether the party seeking relief has
diligently sought a stay,”3 Blixseth sought no stay in
the district court. None was requested in the Circuit;4
and, (2) “whether the plan has been substantially
2
3
4

Doc. 134 at 4.
Doc. 134 at 4.
Doc. 134 at 4.

162a
consummated.”5 To this latter consideration, the Circuit spoke directly – “[T]he plan has been substantially
consummated[.]”6
The record before the Bankruptcy Court when it
issued its order reconfirming the Plan on September
30, 2011, clearly answered, adversely to Blixseth, the
core question in the third consideration of equitable
mootness analysis, namely “whether the bankruptcy
court [could] still fashion effective and equitable relief
short of vacating the Plan.”7
Judge Kirscher’s September 30, 2011, Memorandum of Decision is exhaustive in its detailed description of the efforts expended by the parties in the
process of negotiating and reaching resolution of the
myriad of issues encompassed by the Plan. The exculpation clause, like the Settlement Term Sheet, was an
essential and cornerstone component of the Plan itself.8 Moreover, absent resolution of the numerous disputes memorialized in the Plan and incorporated in
the Settlement Term Sheet, no successful reorganization would have been feasible. Any upset or set aside
of the exculpation clause or the Settlement Term Sheet
would have doomed the Plan itself to failure, and at
this juncture, effectively would require that the Plan
be vacated and constructed anew, thereby creating
“ ‘an uncontrollable situation for the bankruptcy court.’
5
6
7
8

Doc. 134 at 4.
Doc. 134 at 5.
Doc. 134 at 4.
See discussion, Doc. 1-8 at 32-33, 35.

163a
[In re Thorpe, 677 F.3d at 880]; see also In re Spirtos,
992 F.2d 1004, 1006 (9th Cir. 1993).”9 Indeed, as the
Circuit’s Memorandum of May 1, 2015, reflects, issues
Blixseth had raised claiming “that the bankruptcy
court erred in approving the Settlement Term Sheet
and in denying Blixseth’s Rule 60(b) motion for relief
from the Confirmation Order and that Blixseth [was]
therefore entitled to be restored to the ‘status quo
ante,’ ” were rejected for the reason that the relief
sought “would [have] require[d] unraveling the Plan
entirely.”10 Rejection of the exculpation clause would
require that same unraveling of the Plan.
Judge Kirscher’s decision adopting and ratifying
his approval of the “Memorandum of Decision and order entered June 2, 2009, [and] approving the Settlement Term Sheet and confirming the Debtors’ Third
Amended Joint Plan of Reorganization” was fully supportable and in compliance with all requirements of
law.11 All unresolved claims advanced by Blixseth in
this appeal are barred from assertion by equitable
mootness.
ORDERED:
This appeal is DISMISSED.

9

Doc. 134 at 4.
Doc. 134 at 5.
11
Doc. 1-8 at 41.
10

164a
DATED this 23rd day of March, 2016.
/s/ Sam E. Haddon
SAM E. HADDON
United States District Judge

